No. 19-______
IN THE

Supreme Court of the United States
CIC SERVICES, LLC,
Petitioner,
v.
INTERNAL REVENUE SERVICE; DEPARTMENT OF
TREASURY; UNITED STATES OF AMERICA,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
Adam R. Webber
ELLIOT, FAULKNER & WEBBER
4244 Indian Ripple Rd.,
Suite 150
Beavercreek, OH 45440
(937) 264-8710
Kenneth A. Lazarus
LAZARUS & ASSOCIATES
1025 Thomas Jefferson St NW
Washington, DC 20007
(202) 295-2330
lazaruslaw@aol.com

Date: January 17, 2020

Patrick Strawbridge
Counsel of Record
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
patrick@consovoymccarthy.com
Jeffrey M. Harris
Alexa R. Baltes
CONSOVOY MCCARTHY PLLC
ANTONIN SCALIA LAW SCHOOL
SUPREME COURT CLINIC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
jeff@consovoymccarthy.com
Attorneys for Petitioner

i
QUESTION PRESENTED
Whether the Anti-Injunction Act’s bar on
lawsuits for the purpose of restraining the assessment
or collection of taxes also bars challenges to unlawful
regulatory mandates issued by administrative
agencies that are not taxes.

ii

PARTIES TO THE PROCEEDING AND
RELATED PROCEEDINGS
The parties to the proceeding below are as
follows:
Petitioner is CIC Services, LLC. It was the
plaintiff in the district court and appellant in the court
of appeals.
Respondents are the Internal Revenue Service,
the Department of Treasury, and the United States of
America. Respondents were defendants in the district
court and appellees in the court of appeals.
The related proceedings below are:
1) CIC Services, LLC v. IRS, No. 3:17-cv-110
(E.D. Tenn.) – Judgment entered November
2, 2017; and
2) CIC Services, LLC v. IRS, No. 18-5019 (6th
Cir.) – Judgment entered May 22, 2019.

iii

CORPORATE DISCLOSURE STATEMENT
In accordance with Supreme Court Rule 29,
Petitioner CIC Services, LLC states that it has no
parent companies or publicly held companies with a
10% or greater ownership interest in it.

iv

TABLE OF CONTENTS
QUESTION PRESENTED...........................................i
PARTIES TO THE PROCEEDING
AND RELATED PROCEEDINGS ....................... ii
CORPORATE DISCLOSURE STATEMENT .......... iii
TABLE OF CONTENTS ............................................ iv
TABLE OF APPENDICES ........................................ vi
TABLE OF CITED AUTHORITIES .........................vii
OPINIONS BELOW .................................................... 1
JURISDICTION .......................................................... 1
STATUTORY AND REGULATORY
PROVISIONS INVOLVED .................................... 1
INTRODUCTION ........................................................ 2
STATEMENT OF THE CASE .................................... 5
A. Background ....................................................... 5
B. Proceedings Below ............................................ 6
REASONS FOR GRANTING THE PETITION ....... 11
I. The Sixth Circuit’s decision conflicts with
this Court’s decision in Direct Marketing ...... 12

v

A. Direct Marketing makes clear that
a challenge to a regulatory reporting
requirement is not an attempt to
restrain the assessment or collection
of a tax ....................................................... 12
B. The Sixth Circuit’s attempt to distinguish
Direct Marketing is unavailing ................. 16
II. The Sixth Circuit’s opinion conflicts
with decisions from the Seventh and Tenth
Circuits ............................................................ 23
III. The decision below threatens to insulate
agency actions from APA challenges and
undermines the purpose of the APA............. 25
CONCLUSION .......................................................... 30

vi

TABLE OF APPENDICES
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT, FILED MAY 22, 2019 ..............1a
APPENDIX B — MEMORANDUM OPINION
OF THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
TENNESSEE, FILED NOVEMBER 2, 2017 ......38a
APPENDIX C — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT, FILED AUGUST 28, 2019 .....48a
APPENDIX D — RELEVANT STATUTORY
AND REGULATORY PROVISIONS ...................67a

vii

TABLE OF CITED AUTHORITIES
Cases:
Abbott Labs. v. Gardner,
387 U.S. 136 (1967), abrogated on other grounds
by Califano v. Sanders, 430 U.S. 99 (1977)..... 2, 28
Alexander v. “Americans United” Inc.,
416 U.S. 752 (1974) ........................................ 20, 21
Autocam Corp. v. Sebelius,
730 F.3d 618 (6th Cir. 2013), vacated on other
grounds sub nom. Autocam Corp. v. Burwell,
573 U.S. 956 (2014) .......................................... 8, 23
Bob Jones Univ. v. Simon,
416 U.S. 725 (1974), abrogated on other
grounds by NFIB, 567 U.S. 519 ............... 18, 20, 21
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014) ................................................ 8
Cohen v. United States,
650 F.3d 717 (D.C. Cir. 2011) .......................... 5, 19
Direct Mktg. Ass’n v. Brohl,
575 U.S. 1 (2015) .......................................... passim
Flora v. United States,
357 U.S. 63 (1958) .................................................. 3
Florida Bankers Ass’n v. U.S. Dep’t of the Treasury,
799 F.3d 1065 (D.C. Cir. 2015) .................... passim

viii

Free Enter. Fund v. PCAOB,
561 U.S. 477 (2010) .......................................... 2, 27
Hobby Lobby Stores, Inc. v. Sebelius,
723 F.3d 1114 (10th Cir. 2013) .................... passim
Korte v. Sebelius,
735 F.3d 654 (7th Cir. 2013) ................ 5, 10, 23, 24
Mayo Found. for Med. Educ. & Research v.
United States,
562 U.S. 44 (2011) .................................................. 2
NFIB v. Sebelius,
567 U.S. 519 (2012) .............................. 2, 17, 21, 22
Oklahoma Operating Co. v. Love,
252 U.S. 331 (1920) .............................................. 27
Pullan v. Kinsinger,
20 F. Cas. 44 (C.C.S.D. Ohio 1870) ....................... 2
Seven-Sky v. Holder,
661 F.3d 1 (D.C. Cir. 2011) ............................ 18, 21
South Carolina v. Regan,
465 U.S. 367 (1984) .............................................. 28
Statutes and Other Authorities:
5 U.S.C. § 500 .............................................................. 6
5 U.S.C. § 553(b) .......................................................... 6
5 U.S.C. § 553(c) .......................................................... 6

ix

26 U.S.C. § 6011(a) ............................................ 1, 5, 15
26 U.S.C. § 6111 ................................................ 1, 5, 15
26 U.S.C. § 6112 ................................................ 1, 5, 15
26 U.S.C. § 6671(a) .................................................... 16
26 U.S.C. § 6707 .................................................... 1, 15
26 U.S.C. § 6707(c) .................................................... 27
26 U.S.C. § 6707A.................................................. 1, 15
26 U.S.C. § 6707A(c)(1) ......................................... 5, 28
26 U.S.C. § 6707A(d) ................................................. 27
26 U.S.C. § 6708 .......................................................... 1
26 U.S.C. § 7203 ................................................ passim
26 U.S.C. § 7421(a) ............................................ passim
28 U.S.C. § 1254(1) ...................................................... 1
28 U.S.C. § 1341 .................................................. 12, 13
26 C.F.R. §§ 1.6011-4 ................................................ 15
26 C.F.R. §§ 1.6011-4(b) .......................................... 1, 5
26 C.F.R. §§ 301.6111-3 ........................................ 6, 15
26 C.F.R. §§ 301.6111-3(a)-(b)(1) ................................ 1

x

Kristin E. Hickman & Gerald Kerska, Restoring the
Lost Anti-Injunction Act, 103 Va. L. Rev. 1683
(2017) ................................................................ 2, 29
Sup. Ct. Rule 10(a) .................................................... 11
Sup. Ct. Rule 10(c)................................................11-12
Tax Code, Chapter 68, Subchapter B ....................... 16

1

CIC Services, LLC respectfully petitions for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Sixth Circuit.
OPINIONS BELOW
The opinion of the U.S. Court of Appeals for the
Sixth Circuit is reported at 925 F.3d 247 and is
reproduced in the Appendix (“App.”) at 1a-37a. The
opinion of the U.S. District Court for the Eastern
District of Tennessee is unpublished but is available
at 2017 WL 5015510 and is reproduced at App. 38a47a. The order denying the petition for rehearing is
reported at 936 F.3d 501 and is reproduced at App.
48a-66a.
JURISDICTION
The judgment of the U.S. Court of Appeals for
the Sixth Circuit was entered on May 22, 2019. The
Sixth Circuit denied CIC’s petition for rehearing en
banc on August 28, 2019. This Court subsequently
extended the time in which to file this petition until
January 17, 2020. See 19A440. This Court has
jurisdiction pursuant to 28 U.S.C. § 1254(1).
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
The pertinent statutory and regulatory
provisions involved in this case are: 26 U.S.C. §§ 6707,
6707A, 6708, 6011(a), 6111, 6112, 7203, 7421(a); 26
C.F.R. §§ 1.6011-4(b), 301.6111-3(a)-(b)(1); Notice
2016-66. These provisions are reproduced at App. 67a106a.

2

INTRODUCTION
Pre-enforcement review is the lifeblood of
administrative law. Thanks to the Administrative
Procedure Act, law-abiding citizens can challenge
illegal regulations in court, without having to violate
the regulation first and then raise its invalidity as a
defense to an enforcement action. Abbott Labs. v.
Gardner, 387 U.S. 136, 139-41, 152-53 (1967),
abrogated on other grounds by Califano v. Sanders,
430 U.S. 99 (1977). Without pre-enforcement review,
plaintiffs would have to “‘bet the farm’” to “‘test[] the
validity’” of agency action—a risk most would
understandably never take. Free Enter. Fund v.
PCAOB, 561 U.S. 477, 490-91 (2010).
The IRS is not exempt from the APA. Mayo
Found. for Med. Educ. & Research v. United States,
562 U.S. 44, 55 (2011). But once the IRS begins
enforcement, the Anti-Injunction Act prohibits
plaintiffs from suing to “restrain[] the assessment or
collection of any tax.” 26 U.S.C. §7421(a). “Because of
the Anti-Injunction Act, taxes can ordinarily be
challenged only after they are paid, by suing for a
refund.” NFIB v. Sebelius, 567 U.S. 519, 543 (2012).
This system draws upon the “old and familiar rule” of
equity that barred injunctions against tax assessors
and collectors. Pullan v. Kinsinger, 20 F. Cas. 44, 48
(C.C.S.D. Ohio 1870). But, tellingly, it was formally
codified by Congress in the wake of the Civil War,
when the federal government’s need for quick revenue
was especially pressing. See Kristin E. Hickman &
Gerald Kerska, Restoring the Lost Anti-Injunction Act,
103 Va. L. Rev. 1683, 1720-25 (2017). The modern

3

rationale for this “‘pay first and litigate later’” rule is
just as simple: the treasury wants its money upfront,
and it does not want taxpayers using meritless
lawsuits to delay their tax bills. Flora v. United States,
357 U.S. 63, 68, 75 (1958).
This case presents an exceptionally important
question about the relationship between the APA and
the Anti-Injunction Act: Does the Anti-Injunction Act
override the APA and insulate agency action from preenforcement review whenever an agency enforces that
action with a penalty that it labels as a tax? Here,
Petitioner CIC Services challenges IRS guidance
requiring it and its industry to comply with onerous
reporting and information-gathering requirements.
Violations of these requirements are punishable by,
among other things, a tax penalty and imprisonment.
This Court has squarely held that challenges to taxreporting and information-gathering requirements do
not implicate the Anti-Injunction Act. Direct Mktg.
Ass’n v. Brohl, 575 U.S. 1 (2015). But a divided Sixth
Circuit panel concluded that the IRS’s decision to
attach a tax penalty to punish violators of a reporting
requirement revives the Anti-Injunction Act’s bar on
suits that challenge the legality of the requirement.
The Sixth Circuit denied en banc review in a
sharply divided vote. Seven judges agreed with the
panel dissent that “people should not have to risk
prison time in order to challenge the lawfulness of
government action” when the challenge focuses on a
reporting requirement, not the penalty associated
with violating that requirement; “[s]imply put, this is
not a case about taxes.” App. 58a, 60a (Thapar, J.,

4

dissenting from denial of rehearing). Judge Sutton—
whose vote would have been decisive—voted to deny
rehearing not because he agreed with the panel’s
reading of the Anti-Injunction Act “as an original
matter,” but because he believed that the Supreme
Court is “in a well-informed position to resolve the
point.” App. 55a, 57a.
Judge Sutton is correct on that point. The Sixth
Circuit’s decision denying CIC’s pre-enforcement
challenge easily satisfies all of this Court’s criteria for
granting further review.
First, the panel’s decision is contrary to this
Court’s reading of nearly identical statutory language
in Direct Marketing. As in that case, CIC’s injuries
here are the costs of complying with the informationgathering and reporting mandates, not its liability for
tax penalties that the IRS has not (and may never)
assess. The mandates impose duties independent of
the tax penalties, appear in a separate statutory
provision, and would injure the plaintiff even if the tax
penalties were eliminated. Like Direct Marketing, this
case lacks the direct connection to “assessment or
collection” of taxes that the Anti-Injunction Act
requires.
Second, the decision below deepens a split
among the courts of appeal as to the effect of a tax
penalty on an otherwise permissible challenge to a
reporting requirement. Compare App. 7a-8a, and
Florida Bankers Ass’n v. U.S. Dep’t of the Treasury,
799 F.3d 1065, 1069 (D.C. Cir. 2015) (applying the
Anti-Injunction
Act
to
bar
pre-enforcement

5

challenge), with Korte v. Sebelius, 735 F.3d 654, 66970 (7th Cir. 2013) (allowing pre-enforcement suit),
and Hobby Lobby Stores, Inc. v. Sebelius, 723 F.3d
1114, 1126-27 (10th Cir. 2013) (en banc) (same).
Finally, this case presents an indisputably
important question about the meaning of the AntiInjunction Act and this Court’s precedents—one on
which “thoughtful jurists” have divided. App. 65a n.2
(Thapar, J., dissenting from denial of rehearing en
banc). Under the Sixth Circuit’s decision, even
patently unlawful IRS regulations can be insulated
from review unless an individual is willing to risk the
imposition of enormous fines and—in this case—
prison time. As Judge Thapar emphasized, the
erroneous decision in this case will likely lead to a
“‘world in which no challenge to [the IRS’s] actions is
ever outside the closed loop of its taxing authority.’”
App. 66a (quoting Cohen v. United States, 650 F.3d
717, 726 (D.C. Cir. 2011) (en banc)).
STATEMENT OF THE CASE
A.

Background

Congress authorized the IRS to define—“under
regulations”—the “reportable transactions” that must
be submitted with tax returns. 26 U.S.C.
§ 6707A(c)(1); id. § 6011(a); id. § 6111; id. § 6112. But
instead of passing regulations, the IRS simply defined
“reportable transactions” to include “transactions of
interest” and then claimed the authority to identify
those transaction in later “guidance” documents. 26
C.F.R. § 1.6011-4(b). The IRS used this workaround to
publish Notice 2016-66, a guidance document that

6

designates “section 831(b) micro-captive transactions”
as transactions of interest, thereby imposing a
reporting requirement on all such transactions and
their advisors. App. 91a; see 26 C.F.R. § 301.6111-3.1
The Notice never went through notice and comment
or other necessary procedures for “regulations.” See 5
U.S.C. § 553(b)&(c). Throughout this case, the IRS has
never meaningfully disputed that Notice 2016-66 is a
substantive, legislative-type rule subject to the APA’s
notice-and-comment requirements.
CIC Services is a business whose attorneys and
accountants advise taxpayers engaging in microcaptive transactions and is thus subject to the
reporting and recordkeeping requirements imposed
by Notice 2016-66. Compliance with the Notice costs
CIC Services hundreds of hours of labor and tens of
thousands of dollars. And failure to report carries
serious consequences: a potential for hundreds of
thousands of dollars in civil tax penalties, 26 U.S.C.
§§ 6707-6708, and, for willful violations, criminal
penalties, including imprisonment, id. § 7203.
B.

Proceedings Below

In March 2017, CIC filed a pre-enforcement
challenge to Notice 2016-66 in the Eastern District of
Tennessee. It asked the district court to enjoin the
Notice as an illegal attempt to circumvent the
Administrative Procedure Act, 5 U.S.C. § 500 et seq.,
Micro-captives are small insurance companies that
businesses use and own themselves, instead of hiring an insurer
that offers coverage to the general public.
1

7

and other statutes. In its lone defense, the IRS moved
to dismiss the complaint for lack of subject matter
jurisdiction, asserting (as relevant here) that the
complaint was barred by the Anti-Injunction Act, 26
U.S.C. § 7421(a). The district court granted the IRS’s
motion to dismiss on the ground that the AntiInjunction Act bars suits for the purpose of
restraining the assessment or collection of any tax.
App. 46a.
A divided panel of the Sixth Circuit affirmed.
App. 1a-37a. CIC had argued that it was challenging
the agency’s mandate—the reporting requirement
itself and not hypothetical tax penalties. Thus, CIC
argued that its suit lacked the direct connection to
“assessment or collection” of taxes that the AntiInjunction Act requires. The majority acknowledged
that challenges to tax-reporting requirements do not
ordinarily implicate the Anti-Injunction Act because
“information reporting is a separate step in the
taxation process that occurs before assessment or
collection.” App. 16a (citing Direct Mktg, 575 U.S. 1).
But because the reporting requirements at issue here
are enforced by a tax penalty, the panel threw out the
ordinary principle espoused by this Court in Direct
Marketing. The panel believed that CIC’s challenge to
the reporting requirements is necessarily “focused on
that tax’s [the tax-penalty’s] assessment or collection.”
App. 16a. The panel concluded that CIC’s “suit ‘would
have the effect of restraining—fully stopping’ the IRS
from collecting the penalties imposed for violating the
Notice’s requirements,” so under the Anti-Injunction
Act, the court lacked subject-matter jurisdiction. App.
17a, 21a.

8

In rejecting CIC’s argument that it was
challenging the Notice—not the hypothetical tax
penalties associated with violation of the Notice—the
panel acknowledged that its decision conflicted with
its own circuit precedent in Autocam Corp. v. Sebelius,
730 F.3d 618, 622 (6th Cir. 2013), which had “seemed
prepared to recognize the distinction urged by [CIC].”
App. 19a. The panel felt unbound by Autocam because
the Supreme Court “vacated” that decision (on other
grounds) in light of Burwell v. Hobby Lobby Stores,
Inc., 573 U.S. 682 (2014). Instead, it followed the
reasoning laid out by a divided panel of the D.C.
Circuit in Florida Bankers Ass’n, 799 F.3d at 1069.
Judge Nalbandian dissented. App. 25a-37a. In
his view, because CIC’s alleged injury was not tax
liability but rather the significant amount of labor and
money required to comply with the reporting
requirements, the case did not fall within the reach of
the Anti-Injunction Act. App. 26a-27a. According to
Direct Marketing, he explained, a suit to enjoin the
enforcement of a reporting requirement is not a suit
for the purpose of restraining assessment or collection
of taxes. App. 26a-27a. Because Direct Marketing
interpreted the similarly worded Tax-Injunction Act,
Judge Nalbandian would have applied its reasoning
to this case. App. 27a-28a. He also rejected the D.C.
Circuit’s attempt to distinguish cases like this from
Direct Marketing on the argument that the tax
penalty is inextricably linked to the regulation. App.
28a-32a. Unlike the cases that Florida Bankers relied
on—cases in which the alleged injury was the tax
liability—“the regulation that CIC seeks to enjoin
does not directly result in any tax lability.” App. 32a.

9

Here, no tax liability is in jeopardy because CIC has
never been found to have violated the reporting
requirements. App. 32a.
Judge Nalbandian also emphasized the
ramifications of the panel’s opinion. First, it means
that the only way for parties like CIC to challenge an
illegal agency action “is to violate the law and risk
financial ruin and criminal prosecution”—“precisely
the bind that pre-enforcement judicial review was
meant to avoid.” App. 35a. Second, it has the effect of
rendering any regulatory requirement unreviewable,
so long as the agency slaps a tax penalty on it. App.
36a. In sum, Judge Nalbandian concluded that the
panel majority’s interpretation of the Anti-Injunction
Act did not fit with the text, precedent, or purpose of
the statute.
CIC filed a timely petition for rehearing en
banc, which was denied on August 28, 2019. App. 49a.
Multiple judges wrote separately to highlight the
panel’s errors and emphasize the importance of the
issue. Judge Sutton explained that Judge
Nalbandian’s panel dissent “seems to be right as an
original matter.” App. 55a. Indeed, he “doubt[ed] that
the words of the Anti-Injunction Act … ban all
prospective relief whenever the IRS enforces a
regulation with a penalty that it chooses to call a
‘tax.’” App. 55a. And he “especially doubt[ed] that
conclusion in this setting—where the taxpayer’s only
remedy is not to ‘pay first challenge later’ but to
‘report to prison first challenge later.’” App. 55a.
Nevertheless, Judge Sutton concurred in the denial of
rehearing en banc because the case did not come to the

10

Sixth Circuit “on a fresh slate.” App. 56a. He opined
that this Court’s older decisions construing the AntiInjunction Act made following its precedent “tricky
business.” App. 56a. And because the several opinions
in this case and others “say all there is to say about
the issue from a lower court judge’s perspective”
Judge Sutton thought that only this Court could
efficaciously “resolve the point.” App. 57a.
Judge Thapar, writing for himself and six other
judges, dissented from the denial of rehearing en
banc. App. 58a-66a. Like Judge Nalbandian, he
argued that Direct Marketing resolves the question
presented here: whether the Anti-Injunction Act
applies to a suit that challenges the lawfulness of
regulatory
reporting
and
recordkeeping
requirements. App. 58a-59a. The dissent emphasized
that CIC is not trying to evade tax enforcement but
rather “seeks to enjoin the underlying reporting
requirement.” App. 60a. As the dissent explained,
focusing on the alleged injury actually caused by the
reporting requirement—not some hypothetical future
injury from a tax penalty—is not only consistent with
an earlier panel of the Sixth Circuit, but also with
decisions from the Seventh and Tenth Circuits. App.
60a-61a (citing Autocam, 730 F.3d at 621-22, vacated
on other grounds sub nom. Autocam Corp. v. Burwell,
573 U.S. 956 (2014); Korte, 735 F.3d at 669-70; Hobby
Lobby Stores, Inc., 723 F.3d at 1126-27.
Judge Thapar also emphasized the serious and
far-reaching implications of the panel’s decision. As
an initial matter, the law does not ordinarily require
parties to suffer harm before they challenge agency

11

action; but this decision goes even farther than that.
Parties wishing to challenge the IRS’s guidance now
must be willing to violate the law and risk a year in
prison before they are even allowed to bring a
challenge. App. 61a (citing 26 U.S.C. § 7203).
Practically speaking, “these criminal sanctions make
the reporting requirement in this case (and many
others) unreviewable.” App. 62a. Upholding the
panel’s decision, then, means that “the IRS will have
the power to impose sweeping ‘guidance’ across areas
of public and private life, backed by civil and criminal
sanctions, and left unchecked by administrative or
judicial process.” App. 62a-63a.
REASONS FOR GRANTING THE PETITION
The Sixth Circuit “decided an important federal
question in a way that conflicts with [a] relevant
decision[] of this Court.” Sup. Ct. Rule 10(c). By
holding that the Anti-Injunction Act barred CIC’s
challenge, the decision below contravenes a nearly
identical application of a nearly identical provision in
Direct Marketing.
The Sixth Circuit’s decision also “conflict[s]
with the decision[s] of []other United States court[s] of
appeals on the same important matter.” Sup. Ct. Rule
10(a). Specifically, the Seventh and Tenth Circuits
have interpreted the Anti-Injunction Act not to bar a
challenge to a regulatory mandate even when
violation of that mandate resulted in a tax penalty.
In all events, the decision below involves “an
important question of federal law that has not been,
but should be, settled by this Court.” Sup. Ct. Rule

12

10(c). Under the Sixth Circuit’s decision, a party
cannot bring any pre-enforcement challenge to any
regulatory provision—no matter how divorced from
tax liability—if it happens to be enforced by a penalty
that is labeled as a tax. For all of these reasons, the
Court should grant review and reverse the decision
below to bring clarity to this critical area of
administrative law.
I.

The Sixth Circuit’s decision conflicts with
this Court’s decision in Direct Marketing.
A.

Direct Marketing makes clear that a
challenge to a regulatory reporting
requirement is not an attempt to
restrain
the
assessment
or
collection of a tax.

CIC challenges the legality of the reporting
requirements established by Notice 2016-66, separate
and apart from the hypothetical tax penalty that
might be imposed to punish violations of those
requirements. The Anti-Injunction Act states that “no
suit for the purpose of restraining the assessment or
collection of any tax shall be maintained in any court.”
26 U.S.C. § 7421(a). This Court’s opinion in Direct
Marketing makes clear that neither the text nor
purpose of the Anti-Injunction Act bars preenforcement challenges of the type CIC has brought
here.
To be sure, Direct Marketing interpreted the
Tax Injunction Act, 28 U.S.C. § 1341, and not the
Anti-Injunction Act. But both statutes prohibit federal
courts from restraining the assessment or collection of

13

a tax. See Tax Injunction Act, 28 U.S.C. § 1341 (“The
district courts shall not enjoin, suspend or restrain the
assessment, levy or collection of any tax under State
law where a plain, speedy and efficient remedy may
be had in the courts of such State.”). And because the
Tax Injunction Act was modeled on the AntiInjunction Act, this Court “assume[s] that words used
in both Acts are generally used in the same way.”
Direct Mktg, 575 U.S. at 8.
In Direct Marketing, this Court considered
whether a suit to enjoin the tax-related notice and
reporting requirements of a Colorado law governing
internet retailers “would ‘enjoin, suspend, or restrain
the assessment, levy or collection of any tax under
State law.’” Id. at 4, 7. Because the case self-evidently
involved a challenge to enjoin the reporting
requirements, the only question was whether
imposition of those requirements was itself “an act of
assessment, levy or collection.” Id. at 8, 12. The Court
carefully analyzed the definitions of those terms and
unanimously concluded that “enforcement of the
notice and reporting requirements is none of these.”
Id. at 12.
As relevant here, the Court explained that
“assessment” and “collection” are terms of art in
federal tax law. Id. at 8. Assessment is “the official
recording of a taxpayer’s liability.” Id. at 9. And
collection is “the act of obtaining payment of taxes
due.” Id. at 10. The Court held that “[s]o defined, these
terms do not encompass [the state’s] enforcement of
its notice and reporting requirements.” Id. at 11. The
notice and reporting requirements are instead geared

14

toward “information gathering” meant to facilitate
later tax “collection” and “assessment.” Id. at 8-11.
But a reporting requirement is not itself “an act of
assessment … or collection,” and thus a challenge to
the requirement is not barred. Id. at 8, 11-12.
The Court then considered whether the term
“restrain” broadened the application of the prohibition
to suits that might tenuously “‘limit, restrict, or hold
back’ the assessment … or collection” of taxes. Id. at
12. It determined that “restrain” should be understood
in its strict, equitable sense. Id. at 13-14. In other
words, a suit that “merely inhibits” the collection of
tax revenue will not trigger the injunction; only
lawsuits that actually “stop” the assessment or
collection of a tax are barred. Id. at 12-14. And
because the reporting requirements in that case
“precede[d] the steps of ‘assessment’ and ‘collection,’”
a challenge to their enforcement did not stop
assessment or collection. Id. at 11, 14.
Applying Direct Marketing’s interpretation of
nearly identical text in this nearly identical context
shows that the Anti-Injunction Act does not apply to
CIC’s suit. “[T]he notice and reporting requirements”
that CIC challenges “precede the steps of ‘assessment’
and ‘collection.’” Id. at 11 (emphasis added). CIC is not
trying to stop the “assessment or collection” of any tax
or tax penalty. Indeed, it has not engaged in any
action that would trigger the tax penalty. Nor has the
IRS threatened or assessed any tax penalty against
CIC.2 Notice 2016-66 and its nebulous information2 In Notice 2016-66, the IRS even admits that the reason
for the Notice is because the IRS “lack[s] sufficient information”

15

gathering purposes are far removed from the distinct
steps of assessing or collecting a tax.
But the Anti-Injunction Act also clearly
requires that the plaintiff’s suit be “for the purpose of
restraining” assessment or collection of a tax. 26
U.S.C. § 7421(a) (emphasis added). CIC’s suit does not
qualify. CIC is challenging an IRS Notice that subjects
it to reporting requirements; it “does not allege tax
liability as its injury.” App. 26a (Nalbandian, J.,
dissenting). Moreover, the reporting requirements
cannot themselves be plausibly construed as
inextricable from the tax penalties. App. 19a. They
appear in different statutory provisions from the tax
penalties, impose freestanding legal obligations, and
carry criminal consequences independent of the tax
penalties. See 26 U.S.C. §§ 6011(a), 6111, 6112, 26
C.F.R. §§ 1.6011-4, 301.6111-3 (reporting and
recordkeeping requirements); 26 U.S.C. §§ 6707,
6707A (tax penalties); id. § 7203 (criminal penalty).
Indeed, if the tax penalties did not exist, CIC would
have filed this exact same suit. “Put simply, this is not
a dispute over taxes.” App. 26a (Nalbandian, J.,
dissenting).
The Sixth Circuit’s application of the AntiInjunction Act to this kind of pre-enforcement
challenge thus cannot be reconciled with the text of
the Act and with this Court’s decision in Direct
about micro-captive transactions, and it states that once it has
gathered enough information, it may simply rescind its
designation of micro-captives as a reportable transaction. App.
91a-92a. In short, the IRS concedes that—if taxpayers provide
enough information—it may never collect a single dime more.

16

Marketing. The petition should be granted on this
basis alone.
B.

The Sixth
distinguish
unavailing.

Circuit’s attempt to
Direct Marketing is

Following the lead of a divided panel of the D.C.
Circuit, see Florida Bankers, 799 F.3d 1065, the Sixth
Circuit relied on a perceived narrow distinction
between the nature of the penalty in Direct Marketing
and the one at issue here. That reasoning was flawed.
Any purported differences between the penalties at
issue in Direct Marketing and those at issue here
would have no effect on Direct Marketing’s
interpretation or application of statutory text, which
applies with full force here.
In Florida Bankers, on nearly identical facts,
the D.C. Circuit first determined that the Tax Code
treats the civil penalty imposed for violating the
reporting requirement as a “tax” because it is located
in Chapter 68, Subchapter B of the Tax Code. 799 F.3d
at 1068-69 (citing 26 U.S.C. § 6671(a)). Thus, in its
view, the penalty itself was the relevant tax to be
assessed or collected for Anti-Injunction Act
purposes—not whatever downstream tax revenue the
reporting requirements might generate. Id. at 1069.
Relatedly, the D.C. Circuit found that the regulatory
mandate and the tax penalty enforcing the mandate
were so intertwined that a suit for the purpose of
restraining one was also a suit for the purpose of
restraining the other. Id. at 1070 (“[P]laintiffs cannot
evade the Anti-Injunction Act by purporting to

17

challenge only the regulatory aspect of a regulatory
tax.”). It claimed the support of several Supreme
Court cases for this proposition—specifically, cases
involving tax-exempt status and NFIB v. Sebelius. Id.
at 1070-71. Because it framed the challenge to the
reporting requirement as a direct challenge to the tax
penalty—that is, a direct challenge to a “tax”—the
D.C. Circuit held that the case was “at the heartland
of the Anti-Injunction Act” and thus barred. Id. at
1069-72.
In short, the D.C. Circuit found that Direct
Marketing was not controlling because the penalty in
Direct Marketing “was not itself a tax, or at least it
was never argued or suggested that the penalty in
that case was itself a tax.” Id. at 1069. The Sixth
Circuit panel found this distinction “persuasive.” App.
14a. At best, however, this is an immaterial
distinction that should not affect Direct Marketing’s
application to this case.
As an initial matter, the fact that Direct
Marketing did not analyze the character of the
regulatory penalty in that case is persuasive evidence
that it did not matter to the outcome. See App. 34a
(Nalbandian, J., dissenting) (“Nothing” in Direct
Marketing indicates that the Court “would have held
differently if someone had argued that the …
penalties in that case were taxes.”). But the Florida
Bankers analysis is unpersuasive for other reasons as
well.
First, while the penalty enforcing the reporting
requirement there, and in this case, is—according to

18

the Tax Code—to be treated as a tax, it is not an
affirmative, stand-alone tax for the purpose of
“‘protection of the revenues.’” See Seven-Sky v. Holder,
661 F.3d 1, 14 (D.C. Cir. 2011) (quoting Bob Jones
Univ. v. Simon, 416 U.S. 725, 740 (1974)), abrogated
on other grounds by NFIB, 567 U.S. 519. A tax penalty
“is meant to deter violations of the underlying
regulatory requirement: if the penalty is avoided—
and presumably this is the Government’s intent—
then individuals will have complied with the
regulation and the IRS will collect zero revenue.”
Florida Bankers, 799 F.3d at 1078 (Henderson, J.,
dissenting). In other words, the very purpose of a tax
penalty is to help ensure that it never needs to be
collected. Even if the difference between a regulatory
tax and a revenue-raising tax does not, standing
alone, resolve this case, the regulatory nature of the
tax penalty shows that the case falls well outside of
the Anti-Injunction Act’s “heartland” and is far
removed from its historical purpose of ensuring a
steady stream of federal revenue. 799 F.3d at 1072.
Second, Direct Marketing establishes that the
analysis should focus on the plaintiff’s challenge—the
target of the plaintiff’s suit as evidenced by the alleged
injury—and not on independently identifying the
closest possible tax for Anti-Injunction Act purposes.
See 575 U.S. at 6-7, 11-12, 14. Direct Marketing did
not hold that the plaintiff’s suit was outside the scope
of the Tax Injunction Act because the closest related
tax was several steps down the road. It reached that
conclusion because the notice and reporting
requirements were not themselves taxes—they were
distinguishable antecedents to the assessment or

19

collection of a tax. Id. at 11; see also Cohen, 650 F.3d
at 727 (determining the applicability of the AntiInjunction Act requires “careful inquiry into the
remedy sought, the statutory basis for that remedy,
and any implication the remedy may have on
assessment and collection”).
Here,
CIC
challenges
the
reporting
requirements—not some hypothetical tax penalty.
Those existing reporting requirements cause CIC
significant injury. Indeed, the tax penalty is largely
irrelevant to CIC because CIC has never done
anything to trigger it. “Per the Supreme Court’s
direction, [this] suit cannot be understood to
‘restrain[] the assessment or collection’ of a tax just
because it might inhibit the agency’s future collection
efforts” following a hypothetical future enforcement
action. See App. 59a-60a (Thapar, J., dissenting from
denial of rehearing en banc).
Like the D.C. Circuit in Florida Bankers, the
Sixth Circuit panel asserted that even if CIC’s suit
facially challenges only the regulatory mandate, and
not the tax penalty, it is still barred because it has the
“‘effect of restraining—fully stopping’ the IRS from
collecting the penalties imposed for violating the
Notice’s requirements.” App. 17a. But even assuming
that is right in a technical sense, it puts the cart before
the horse. The Anti-Injunction Act bars suits “for the
purpose of restraining the assessment or collection of
any tax.” 26 U.S.C. § 7421(a); see App. 64a n.1
(Thapar, J., dissenting from denial of rehearing en
banc) (cautioning against interpretations that would
“rewrite[e] the Anti-Injunction Act to say ‘effect’

20

rather than ‘purpose’”). CIC’s sole purpose in bringing
this action is to enjoin the reporting requirements.
Thus, the existence of the tax penalty matters
only if the panel below and the D.C. Circuit were right
that regulatory mandates and the penalties for
violating regulatory mandates are somehow
inextricably intertwined. They are not. Arguing to the
contrary, the Sixth Circuit panel pointed to Alexander
v. “Americans United” Inc., 416 U.S. 752 (1974) and
Bob Jones University v. Simon, 416 U.S. 725 (1974).
Both cases grounded challenges to the revocation of
their tax-exempt status in an argument that they
“sought only to maintain their flow of charitable
donations, not to restrain a tax.” App. 64a (Thapar, J.,
dissenting from denial of rehearing en banc). In those
cases, this Court refused to accept the taxpayers’
attempts to distinguish the purposes of their suits—
not because the distinction was impossible—but
because the evidence in those cases did not support
the distinction.
In Bob Jones the Court looked to “Petitioner’s
complaint and supporting documents” and found that
they “belie[d] any notion that this suit is not a suit to
enjoin the assessment or collection of federal taxes
from petitioner.” 416 U.S. at 738. The sum of the
petitioner’s alleged injuries focused on its own “tax
liability” that would flow from revocation of its taxexempt status. Id. On that record there was “little
doubt that a primary purpose of th[e] lawsuit [was] to
prevent the [IRS] from assessing and collecting
income taxes from petitioner.” Id. So too in
“Americans United.” See 416 U.S. at 760-61

21

(“[R]espondent would not be interested in obtaining
the … relief requested if that relief did not effectively
restrain the taxation of its contributors”); see also
Seven-Sky, 661 F.3d at 10 (explaining that the
petitioners’ arguments in “Americans United” and Bob
Jones were “defeated by [their] own pleadings, since
the only injuries [they] identified involved tax
liability”).
These cases show that the purpose of a lawsuit
must be analyzed in light of the injury sought to be
remedied.3 Here, CIC has demonstrated “a clear
interest—separate from any potential ‘tax’ liability—
in avoiding the substantial costs of the reporting
requirement. The ‘purpose’ of its lawsuit is to obtain
relief from costs the company must pay today, not
restrain a penalty it might have to pay tomorrow.”
App. 64a (Thapar, J., dissenting from denial of
rehearing en banc).
The Sixth Circuit panel also cited the D.C.
Circuit’s discussion of NFIB, 567 U.S. at 519, to
support its case-determinative reliance on the
As Judge Thapar acknowledged in his dissent from the
denial of rehearing en banc, App. 64a n.1, Bob Jones can be read
to have suggested, in passing, that the Anti-Injunction Act would
bar any suit that would “necessarily preclude” the collection of
taxes. 416 U.S. at 732. But “that stray phrase has never since
been invoked by the Court, even in a decision released on the
same day by the same Justice about the same issue”—a decision
that “would have been … much easier” if that language were
applied. App. 64a n.1 (citing “Americans United,” 416 U.S. 752).
And for good reason. “The ‘necessarily preclude’ test would …
have the inconvenient feature of rewriting the Anti-Injunction
Act to say ‘effect’ rather than ‘purpose.’” App. 64a n.1.
3

22

penalty’s status as a tax. See App. 13a. In NFIB, it was
argued that the Anti-Injunction Act did not apply to
the case because plaintiffs were challenging the
regulatory mandate to purchase health insurance, not
the penalty for failing to purchase the insurance. See
Florida Bankers, 799 F.3d at 1071 (discussing the
arguments). While the Court agreed in NFIB that the
Anti-Injunction Act did not apply, it never engaged
the plaintiffs’ argument. Instead, it held that the AntiInjunction Act did not apply because the penalty at
issue was not a tax at all. 567 U.S. at 544-45.
Florida Bankers took this to mean that “the
Anti-Injunction Act would have applied if the penalty
were a tax under the act.” 799 F.3d at 1071. But
several judges have pointed out the flaw in that logic.
See App. 33a (Nalbandian, J., dissenting); App. 64a65a (Thapar, J., dissenting from denial of rehearing
en banc); Florida Bankers, 799 F.3d at 1080
(Henderson, J., dissenting). Indeed, it is “wrong to
assume that a suit implicating a tax triggers the AntiInjunction Act simply because a suit not implicating a
tax does not trigger the Anti-Injunction Act.” App. 33a
(Nalbandian, J., dissenting); see also Florida Bankers,
799 F.3d at1080 (Henderson, J., dissenting) (citing the
fallacy of “denying the antecedent”). At bottom, NFIB
“never reached the question” whether—were the
penalty a tax—the lawsuit would have had the
purpose of restraining it. App. 64a-65a (Thapar, J.,
dissenting from denial of rehearing en banc); see App.
34a (Nalbandian, J., dissenting) (“[T]he NFIB Court
never said that pre-enforcement review of a
regulatory mandate is barred under the AntiInjunction Act simply because it is enforced by a tax.

23

A search for that proposition in the opinion leaves one
emptyhanded.”).
In short, this Court’s precedent does not
suggest that regulatory mandates and the tax
penalties that enforce them are so intertwined that a
challenge to one is a challenge the other. The penalty’s
status as a tax thus provides no basis to treat CIC’s
challenge any differently from the one analyzed in
Direct Marketing: (1) determine the direct target of
the suit and (2) determine whether that target is a
tax. The decision below is irreconcilable with Direct
Marketing’s reasoning.
II.

The Sixth Circuit’s opinion conflicts with
decisions from the Seventh and Tenth
Circuits.

The Sixth and D.C. Circuits’ opinions not only
depart from Direct Marketing—and an earlier,
directly-on-point decision of the Sixth Circuit, see
Autocam, 730 F.3d at 621-22—but they stand in stark
contrast to decisions of the Seventh and Tenth
Circuits. In those cases, the courts rejected an
interpretation of the Anti-Injunction Act that would
bar pre-enforcement challenges to the Affordable Care
Act’s contraceptive mandate because those suits
challenged the mandate itself, not the “tax penalty”
attached to it. See Korte, 735 F.3d at 669-70 (7th Cir.
2013); Hobby Lobby Stores, 723 F.3d at 1126-27 (10th
Cir. 2013) (en banc).
As the Seventh Circuit explained, preenforcement challenges to the contraceptive mandate
“[w]ere not suits ‘for the purpose of’ restraining the

24

assessment or collection of a tax”; they “s[ought] relief
from a regulatory mandate that exists separate and
apart from the assessment or collection of taxes.”
Korte, 735 F.3d at 669. The mandate was “not
structured as a predicate to the imposition of a tax but
[wa]s instead an independent regulatory mandate”;
indeed, the “stiff tax penalties” attached to it were not
the only “consequences for noncompliance.” Id. The
Seventh Circuit acknowledged that invalidating the
mandate would “incidentally affect … tax liability” by
making it impossible for individuals to be “liable for
the tax penalty.” Id. at 669-70. But the court rejected
this reasoning as too attenuated: “the Anti-Injunction
Act does not reach ‘all disputes tangentially related to
taxes’”; “the assessment or collection of a tax must be
the primary purpose of the lawsuit.” Id. “These
lawsuits,” the court concluded, “target the mandate
itself.” Id.
The Tenth Circuit, sitting en banc,
unanimously endorsed this same reading of the AntiInjunction Act. See Hobby Lobby, 723 F.3d at 1126-28;
id. at 1164 (Briscoe, J., concurring in part and
dissenting in part); id. at 1191 (Matheson, J.,
concurring in part and dissenting in part). Preenforcement challenges to the contraceptive mandate,
the majority opinion explained, were “not challenging
the IRS’s ability to collect taxes”; they were “seeking

25

to enjoin the enforcement, by whatever method, of one
HHS regulation.” Id. at 1127.4
The decision below thus deepens the existing
circuit split, leaving the four courts of appeal to have
reached this question evenly divided. This division
was acknowledged below. See App. 61a, 65a n.2
(Thapar, J., dissenting from denial of rehearing en
banc) (noting that the decision below conflicted with
“[t]wo other circuits,” and that “thoughtful jurists”—
including the majority—“have read [this Court’s]
cases as well as the Anti-Injunction Act differently”).
Certiorari is warranted to resolve this ongoing
division among the lower courts.
III.

The decision below threatens to insulate
agency actions from APA challenges and
undermines the purpose of the APA.

The division among the lower courts arises in
part from the high-stakes implications of the question
presented for the whole of administrative law. As
several judges have noted, the decision below
threatens to snuff out any practical ability for affected
individuals to challenge a wide swath of agency
actions. Moreover, the decision undermines the core
purposes of the Administrative Procedure Act, namely
ensuring that regulated parties have an ability to
obtain pre-enforcement review of administrative
mandates.
The Tenth Circuit and Seventh Circuit reached their
conclusions without the benefit of Direct Marketing—a decision
that further supports their reasoning.
4

26

As it stands, the law in the Sixth and D.C.
Circuits requires parties to first “pay” the penalty and
“report to prison” before challenging unlawful agency
action, App. 55a (Sutton, J., concurring in the denial
of rehearing en banc)—at least as long as the agency
slaps a tax penalty on its regulatory mandate, which
could be done for any agency action. See App. 61a-62a
(Thapar, J., dissenting from denial of rehearing en
banc) (explaining that agencies now regulate in an
“ever-expanding sphere of everyday life—from
childcare and charity to healthcare and the
environment”). In doing so, the Sixth Circuit has not
only “ban[ned] all prospective relief whenever the IRS
enforces a regulation with a penalty that it chooses to
call a ‘tax,’” App. 55a (Sutton, J., concurring in the
denial of rehearing en banc) (emphasis added), but
has also effectively rendered the agency action
entirely “unreviewable,” App. 62a (Thapar, J.,
dissenting from denial of rehearing en banc); App. 36a
(Nalbandian dissenting) (citing Hickman & Kerska at
1685-86).
This means that, “[g]oing forward …, the IRS
will have the power to impose sweeping ‘guidance’
across areas of public and private life, backed by civil
and criminal sanctions, and left unchecked by
administrative or judicial process.” App. 62a-63a
(Thapar, J., dissenting from denial of rehearing en
banc). As Judge Nalbandian explained, there are no
limits to the panel’s opinion: its logic would even
“require [courts] to characterize an Equal Protection
challenge to [a racially] discriminatory [regulation] as
a ‘suit for the purpose of restraining the assessment
or collection of a tax’ simply because it is enforced by

27

a penalty in Chapter 68, Subchapter B of the Tax
Code.” App. 30a-31a. “Intuitively, we know that
description cannot stand without warping the
meaning of the statute beyond recognition.” App. 31a
(Nalbandian, J., dissenting).
CIC’s situation well illustrates this farreaching threat. According to the Sixth Circuit, CIC
cannot obtain judicial review unless (1) it deliberately
violates the reporting requirements imposed by Notice
2016-66, (2) the IRS chooses to assess a tax penalty,
(3) CIC pays it, and (4) CIC sues for a refund. Each of
these steps is “fraught” with difficulties, App. 37a
(Nalbandian, J., dissenting), starting with the fact
that deliberately violating a reporting requirement is
a crime punishable by up to a year in prison and
$100,000 in fines.5 26 U.S.C. § 7203. Of course, even if
CIC were willing to “‘bet the farm’” and assume such
risk, see Free Enter. Fund, 561 U.S. at 490-91, the
decision to assess a tax penalty is committed to the
IRS’s unreviewable discretion, 26 U.S.C. §§ 6707A(d),
6707(c)—making the IRS (the would-be defendant)
the sole arbiter of whether CIC can sue. And even
then, assuming the IRS would assess the tax penalty,
CIC’s ability to challenge the illegal agency action
assumes that CIC could pay the penalties assessed—
“to the tune of $50,000 … for each transaction [CIC]
fails to report.” App. 34a (Nalbandian, J., dissenting);
Oklahoma Operating Co. v. Love, 252 U.S. 331, 336
(1920) (noting that some penalties can be set so high
This is to say nothing of the fact that, for CIC’s attorneyand accountant-members, deliberately breaking the tax laws
would violate the ethical strictures of their professions.
5

28

that they “might well deter even the boldest and most
confident”). For all these reasons, there is a serious
risk that the panel’s decision deprives aggrieved
taxpayers of “any opportunity to obtain review.” South
Carolina v. Regan, 465 U.S. 367, 380-81 (1984).6
The panel’s decision also undercuts the core
goals of the APA.7 The APA was designed to foster
expedient pre-enforcement review of questionable
agency action and to require lawful agency
rulemaking. See Abbott Labs., 387 U.S. at 140-41. But
the panel’s decision allows illegal agency actions to
survive indefinitely without judicial review. That is
especially problematic in light of the IRS’s blatant
disregard both for APA rulemaking requirements and
Congress’s specific mandate to define reportable
transactions “under regulations.” 26 U.S.C.
§ 6707A(c)(1). Indeed, the panel emphasized that the
IRS does “not have a great history of complying with
APA procedures, having claimed for several decades
that their rules and regulations are exempt from those
6 If the Anti-Injunction Act requires all of that before a
plaintiff can obtain judicial review, then it is unconstitutional.
See Florida Bankers, 799 F.3d at 1083-84 (Henderson, J.,
dissenting) (collecting authorities). Thankfully, the best reading
of the text of the Anti-Injunction Act and this Court’s caselaw
does not support that result.

The panel decision likewise fails to serve the core goals
of the Anti-Injunction Act—protecting government coffers. And
it contradicts the Anti-Injunction Act’s presumptive preference
for legal compliance. The Act tells taxpayers they must comply
with the law: pay an assessed tax and then sue for a refund. The
panel’s opinion, on the other hand, encourages law breaking by
forcing parties to violate a regulatory mandate in order to
challenge it.
7

29

requirements.” App. 24a (quoting Hickman & Kerska
at 1712–13).
Notwithstanding these concerns, the lower
courts have struggled without clear guidance from
this Court. Because this Court has addressed closely
related issues and invoked the more precise issue
without deciding it, neither the Sixth nor the D.C.
Circuit purported to answer the question presented as
an original matter. In Judge Sutton’s view, both
courts were compelled into the “tricky business” of
“reading between the lines of Supreme Court
decisions.” App. 56a (Sutton, J., concurring in the
denial of rehearing en banc). And while the best
reading of this Court’s precedent supports CIC’s
interpretation of the Anti-Injunction Act, the task
from a lower-court perspective was made even more
complicated by stray language in past precedent of
this Court that arguably “leans in different
directions.” App. 56a.
The lower courts’ efforts to apply such scattered
guidance have thus produced a diverging collection of
opinions—primarily in the Sixth and D.C. Circuits,
but also in the Seventh and Tenth Circuits—that,
collectively, “say all there is to say about the issue
from a lower court judge’s perspective” and leave this
Court “in a well-informed position to resolve the
point.” App. 57a (Sutton, J., concurring in the denial
of rehearing en banc). Judge Sutton counseled against
en banc review in the Sixth Circuit not because the
panel was right or because the issue lacked
importance but precisely because he believes further
review by the lower courts will add no value, and will,

30

in all likelihood only add to the confusion. App. 57a.
This Court’s review is needed to clarify the law,
restore uniformity among the circuits, and prevent
federal agencies from evading review of unlawful
regulations.
CONCLUSION
The Petition for a writ of certiorari should be
granted.

Adam R. Webber
ELLIOT, FAULKNER & WEBBER
4244 Indian Ripple Rd.,
Suite 150
Beavercreek, OH 45440
(937) 264-8710
Kenneth A. Lazarus
LAZARUS & ASSOCIATES
1025 Thomas Jefferson St NW
Washington, DC 20007
(202) 295-2330
lazaruslaw@aol.com

Date: January 17, 2020

Patrick Strawbridge
Counsel of Record
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
patrick@consovoymccarthy.com
Jeffrey M. Harris
Alexa R. Baltes
CONSOVOY MCCARTHY PLLC
ANTONIN SCALIA LAW SCHOOL
SUPREME COURT CLINIC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
jeff@consovoymccarthy.com
Attorneys for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the
sixth circuit, filed may 22, 2019
United States Court of Appeals
for the Sixth Circuit
No. 18-5019
CIC SERVICES, LLC,
Plaintiff-Appellant,
v.
INTERNAL REVENUE SERVICE; DEPARTMENT
OF TREASURY; UNITED STATES OF AMERICA,
Defendants-Appellees.
Appeal from the United States District Court for
the Eastern District of Tennessee at Knoxville. No.
3:17-cv-00110—Travis R. McDonough, District Judge.
October 19, 2018, Argued
May 22, 2019, Decided
May 22, 2019, Filed
B e f o r e : S U HRHEINRI C H , C LA Y, a n d
NALBANDIAN, Circuit Judges.*
The Honorable Damon J. Keith, who participated in oral
argument as a member of the original panel, died on April 28, 2019.
Judge Suhrheinrich replaced Judge Keith on this panel for the
consideration and decision of this case.
*

2a
Appendix A
OPINION
CLAY, Circuit Judge. Plaintiff CIC Services, LLC
appeals the district court’s November 2, 2017 order
granting Defendants’ motion to dismiss Plaintiff ’s
complaint for lack of subject matter jurisdiction. Plaintiff’s
complaint alleges that Defendants’ Notice 2016-66,
2016-47 I.R.B. 745 was promulgated in violation of the
Administrative Procedure Act, 5 U.S.C. § 500 et seq. and
the Congressional Review Act, 5 U.S.C. § 801 et seq., and
seeks to enjoin its enforcement. For the reasons that
follow, we AFFIRM the district court’s dismissal.
BACKGROUND
Factual Background
As a part of the American Jobs Creation Act of 2004,
Congress delegated authority to the Internal Revenue
Service (“IRS”) to identify and gather information about
potential tax shelters. See 26 U.S.C. § 6707A. In exercising
that authority, the IRS requires taxpayers and certain
third parties to maintain and submit records pertaining to
any “reportable transaction[s].” Id. § 6707A(c). Reportable
transactions are those transactions deemed as such by
IRS regulations. Id.
Failure to adhere to these IRS requirements can
result in significant penalties. For instance, a taxpayer
who fails to submit to the IRS a return listing his or her
reportable transactions faces a penalty of 75% of his
or her tax savings resulting from those transactions,

3a
Appendix A
from a minimum of $5,000 to a maximum of $200,000.
Id. §§ 6011, 6707A(b). A “material advisor” — one who
provides material aid to a taxpayer in his or her carrying
out reportable transactions and who derives a threshold
amount of gross income from that aid, see id. § 6111(b)
— faces similar penalties. For instance, a material
advisor who fails to submit to the IRS a return listing the
reportable transactions in which he or she aided faces a
penalty of between $50,000 and $200,000. Id. §§ 6111(a),
6707(b). And a material advisor who fails to maintain a
list of the taxpayers that he or she aided in carrying out
reportable transactions faces a penalty of $10,000 per
day if the list is not produced within 20 business days of
a request from the IRS. Id. §§ 6112(a), 6708(a).
On November 21, 2016, Defendants published Notice
2016-66 (the “Notice”).1 See 2016-47 I.R.B. 745. The
Notice identified certain “micro-captive transactions”
as “transactions of interest,” a subset of reportable
transactions. 2 Id.; see also 26 C.F.R. § 1.6011-4(b). The
1. Notice 2016-66 was amended by Notice 2017-08, but only with
regard to various deadlines. See 2017-3 I.R.B. 423. Accordingly, we
refer only to Notice 2016-66.
2. Micro-captive transactions are “a type of transaction . . . in
which a taxpayer attempts to reduce the aggregate taxable income
of the taxpayer, related persons, or both, using contracts that the
parties treat as insurance contracts and a related company that the
parties treat as a captive insurance company.” Id. The details of these
transactions and their tax implications for those that engage in them
are not relevant to this appeal. If desired, more information can be
found at 26 U.S.C. § 831(b) and at IRS News Release IR-2018-62
(Mar. 19, 2018).

4a
Appendix A
Notice explained that these transactions have “a potential
for tax avoidance or evasion,” but that the IRS “lack[s]
sufficient information” to distinguish between those that
are lawful and those that are unlawful. 2016-47 I.R.B.
745. By deeming these transactions to be reportable
transactions, the Notice imposed the requirements and
potential penalties noted above on taxpayers engaging in
them, and on material advisors aiding in them. Id.
Procedural History
On March 27, 2017, Plaintiff, a material advisor to
taxpayers engaging in micro-captive transactions, filed
a complaint in the United States District Court for the
Eastern District of Tennessee. Plaintiff’s complaint
alleges that Defendants promulgated Notice 2016-66 in
violation of the Administrative Procedure Act (“APA”),
5 U.S.C. § 500 et seq. and the Congressional Review Act
(“CRA”), 5 U.S.C. § 801 et seq., and seeks to enjoin its
enforcement. Specifically, Plaintiff alleges that the Notice
(1) is a legislative rule that required notice-and-comment
rulemaking, (2) is arbitrary and capricious, and therefore
ultra vires, and (3) is a rule that required submission for
congressional review before it could go into effect. Plaintiff
also filed a motion for a preliminary injunction.
On April 21, 2017, the district court denied Plaintiff’s
motion for a preliminary injunction, reasoning that it
would not be in the public interest and that Plaintiff
was unlikely to succeed on the merits. Defendants then
moved to dismiss Plaintiff’s complaint for lack of subject
matter jurisdiction. Defendants asserted that Plaintiff’s

5a
Appendix A
complaint was barred by the Anti-Injunction Act, 26
U.S.C. § 7421(a) and the tax exception to the Declaratory
Judgment Act, 28 U.S.C. § 2201 (collectively, the “AIA”), 3
which divest federal district courts of jurisdiction over
suits “for the purpose of restraining the assessment or
collection of any tax.” On November 2, 2017, the district
court granted Defendants’ motion to dismiss for lack of
subject matter jurisdiction.
This appeal followed.
DISCUSSION
I. 	Standard of Review
We review de novo questions of subject matter
jurisdiction, including whether a complaint is barred
by the AIA. Lorillard Tobacco Co. v. Chester, Wilcox &
Saxbe, 589 F.3d 835, 843 (6th Cir. 2009). In reviewing a
district court’s grant of a motion to dismiss pursuant to
Federal Rule of Civil Procedure 12(b)(1), we accept all
material allegations in the complaint as true and construe
the complaint in the light most favorable to the nonmoving
party. United States v. Ritchie, 15 F.3d 592, 598 (6th Cir.
1994).

3. The Anti-Injunction Act and the tax exception to the
Declaratory Judgment Act are “to be interpreted coterminously.”
Ecclesiastical Order of the ISM of AM, Inc. v. Internal Revenue
Serv., 725 F.2d 398, 404-05 (6th Cir. 1984). For simplicity, we refer
to both as the “AIA.”

6a
Appendix A
II. Analysis
A. 	The AIA
The AIA provides that “no suit for the purpose of
restraining the assessment or collection of any tax shall be
maintained in any court by any person.” 26 U.S.C. § 7421(a).
While there exist some statutory and judicial exceptions
to this prohibition, they are few and circumscribed. See
RYO Mach., LLC v. U.S. Dep’t of Treasury, 696 F.3d 467,
470 (6th Cir. 2012) (“With few exceptions, no court has
jurisdiction over a suit to preemptively challenge a tax.”).
Thus, “whether an injunction can legally issue under the
AIA” requires only two inquiries. Id. at 471. “First, we
must consider whether the . . . complaint[] [is] within the
purview of the AIA as a ‘suit for the purpose of restraining
the assessment or collection of any tax.’” Id. (quoting
26 U.S.C. § 7421(a)). Second, “[i]f so, we must [consider]
whether [the] case falls into an exception to the AIA that
would [nevertheless] allow us to [reach] the merits.”4 Id.
The problem with these ostensibly straightforward
inquiries is that “courts lack an overarching theory of
the AIA’s meaning and scope against which to evaluate
4. In this way, the AIA “creates a narrow exception to the
general administrative law principle that pre-enforcement review
of agency regulations is available in federal court.” Fla. Bankers
Ass’n v. U.S. Dep’t of the Treasury, 799 F.3d 1065, 1066, 419 U.S.
App. D.C. 31 (D.C. Cir. 2015); see also Bob Jones Univ. v. Simon,
416 U.S. 725, 736, 94 S. Ct. 2038, 40 L. Ed. 2d 496 (1974). Cf. Abbott
Laboratories v. Gardner, 387 U.S. 136, 140-41, 87 S. Ct. 1507, 18 L.
Ed. 2d 681 (1967).

7a
Appendix A
individual [complaints].” Kristin E. Hickman & Gerald
Kerska, Restoring the Lost Anti-Injunction Act, 103
Va. L. Rev. 1683, 1686 (2017). At times, the Supreme
Court has given the AIA “literal force,” without regard
to the character of the tax, the characterization of the
preemptive challenge to it, or other non-textual factors.
Bob Jones Univ. v. Simon, 416 U.S. 725, 742, 94 S. Ct.
2038, 40 L. Ed. 2d 496 (1974). At other times, it has given
the AIA “almost literal” force, considering such factors
with an eye towards furthering the AIA’s underlying
purposes. Id. at 737, 742. The result, according to some
commentators, has been “jurisprudential chaos.” Hickman
& Kerska, supra, at 1686.
We attempt to find some order amidst the chaos,
addressing each of the AIA inquiries in turn.
1.

Whether Plaintiff’s complaint is within
the purview of the AIA

Whether a complaint is within the purview of the AIA
depends, commonsensically, on whether it is properly
characterized as a “suit for the purpose of restraining
the assessment or collection of any tax.” RYO, 696 F.3d at
471 (quoting 26 U.S.C. § 7421(a)). Plaintiff argues that its
complaint is not a suit for the purpose of restraining the
assessment or collection of taxes. Defendants argue that it
is. Reducing the briefs to their cores, Plaintiff asserts that
the Supreme Court’s recent decision in Direct Marketing
Ass’n v. Brohl, 575 U.S. ___, 135 S. Ct. 1124, 191 L. Ed. 2d
97 (2015) controls this issue, while Defendants assert that
the D.C. Circuit’s subsequent decision in Florida Bankers

8a
Appendix A
Ass’n v. U.S. Dep’t of the Treasury, 799 F.3d 1065, 419
U.S. App. D.C. 31 (D.C. Cir. 2015), distinguishing Direct
Marketing, is more persuasive. We agree with Defendants
and hold that Plaintiff’s complaint is within the purview
of the AIA.
In Direct Marketing, the Supreme Court analyzed the
scope of the Tax Injunction Act (“TIA”), which provides
that no federal district court shall “enjoin, suspend, or
restrain the assessment, levy or collection of any tax
under State law where a plain, speedy and efficient remedy
may be had in the court of such State.” 28 U.S.C. § 1341.
Although the TIA concerns state as opposed to federal
taxes, it was “modeled on” the AIA and the Supreme
Court has long looked to one in construing the other.
Direct Marketing, 135 S. Ct. at 1129; see also Enochs v.
Williams Packing & Nav. Co., 370 U.S. 1, 6, 82 S. Ct. 1125,
8 L. Ed. 2d 292 (1962) (“The enactment of the comparable
[TIA] . . . throws light on the proper construction to be
given [to the AIA].”). The Court began its opinion in Direct
Marketing by reaffirming this close connection between
the two Acts, and making clear that “[it] assume[s] that
words used in both Acts are generally used in the same
way.” 135 S. Ct. at 1129.
At issue in Direct Marketing were the meanings
of “restrain,” “assessment,” “levy,” and “collection,” all
words, apart from “levy,” used in both the TIA and the
AIA. See 28 U.S.C. § 1341; 26 U.S.C. § 7421(a).
With regard to “restrain,” the Court explained
that “standing alone [it] can have several meanings.”

9a
Appendix A
Direct Marketing, 135 S. Ct. at 1132. One is a “broad
meaning” that “captures orders that merely inhibit
acts of assessment, levy and collection.” Id. “Another,
narrower meaning, however, is ‘to prohibit from action; to
put compulsion upon . . . [or] to enjoin,’” and this meaning
“captures only those orders that stop (or perhaps compel)
acts of assessment, levy and collection.” Id. (quotation
omitted). The Court held that the TIA uses “restrain” in
the latter, narrower sense. Id. And in doing so, it relied on
two contextual clues: the words preceding “restrain” in the
TIA — “enjoin” and “suspend,” both of which are “terms
of art in equity” — and the “carefully selected list of
technical terms” on which “restrain” acts — “assessment,”
“levy,” and “collection.” Id. The Court explained that to
give “restrain” the broad meaning would “defeat the
precision” of these contextual clues, and would render
several of the terms superfluous. Id. Thus, the question
that the TIA asks is “whether the relief [sought] to some
degree stops ‘assessment, levy or collection,’ not whether
it merely inhibits them.” Id. at 1133 (emphasis added).
With regard to “assessment” and “collection,” the
Court noted that it need not “comprehensively define these
terms” in order to hold that they did not encompass the
reporting requirements at issue. Id. at 1129. Nevertheless,
the Court explained that “assessment” refers to “the
official recording of a taxpayer’s liability.” Id. at 1130.
“Collection,” in turn, “is the act of obtaining payment of
taxes due.” Id. While both “might also be understood more
broadly,” the Court held that under either the narrow
or the broad definition, each is a “separate step in the
taxation process” that occurs after the step of reporting

10a
Appendix A
to the taxing authority information used to determine
tax liability. Id. at 1129-31. (“[T]he Federal Tax Code
has long treated information gathering as a phase of tax
administration procedure that occurs before assessment,
levy, or collection.”).
Based on these definitions, the Supreme Court in
Direct Marketing ultimately held that the TIA did not
bar the plaintiff’s suit. The plaintiff had sought to enjoin
the enforcement of a Colorado law that required certain
retailers to maintain and submit records pertaining to
sales on which the retailers did not collect state sales and
use taxes. Id. at 1128, 1134. The Court reasoned that while
enforcement of the law might “improve Colorado’s ability
to assess and ultimately collect its sales and use taxes
from consumers,” the law was focused on information
gathering as opposed to the discrete, subsequent acts of
assessment, levy, and collection. Id. at 1131. Accordingly, a
suit seeking to enjoin its enforcement would, if successful,
“merely inhibit[]” those acts as opposed to “restrain[ing]”
them. Id. at 1133. And thus the merits of the plaintiff’s
suit could be reached.
Shortly after Direct Marketing, the D.C. Circuit
distinguished it in Florida Bankers with then-Judge
Kavanaugh writing for the majority. 799 F.3d at 1069. At
issue in Florida Bankers were the meanings of “tax” and
“for the purpose of” as used in the AIA. See 26 U.S.C.
§ 7421(a).
With regard to “tax,” the court asked whether that
term covers a “penalty” imposed to enforce a “tax-related

11a
Appendix A
statutory or regulatory requirement.” Fla. Bankers, 799
F.3d at 1067. The court explained that while “[t]he answer
to that question is often no . . . the Tax Code defines
some penalties as taxes for purposes of the [AIA].” Id.
“In those cases, the [AIA] ordinarily applies because the
suit, if successful, would invalidate the regulation and
thereby directly prevent [the] collection of [that] tax.” Id.
The court held that this is exactly what occurs when the
penalty at issue is located in Chapter 68, Subchapter B
of the Tax Code. Id. In 26 U.S.C. § 6671(a), the Tax Code
explicitly defines such penalties as taxes for the purposes
of the AIA, and that practice has been “clear[ly] and
unequivocal[ly]” acknowledged by the Supreme Court.
Id. at 1068. Specifically, in Nat’l Fed’n of Indep. Bus. v.
Sebelius, the Court explained:
Congress can, of course, describe something
as a penalty but direct that it nonetheless be
treated as a tax for purposes of the [AIA].
For example, 26 U.S.C. § 6671(a) provides that
“any reference in this title to ‘tax’ imposed
by this title shall be deemed also to refer
to the penalties and liabilities provided by”
Subchapter 68B of the [Tax] Code. Penalties in
Subchapter 68B are thus treated as taxes under
Title 26, which includes the [AIA].
567 U.S. 519, 544, 132 S. Ct. 2566, 183 L. Ed. 2d 450
(2012). Thus, the court in Florida Bankers reasoned that
the relevant “tax” in its AIA analysis was the penalty —
located in Chapter 68, Subchapter B — that would be
imposed upon violation of the challenged regulation. 799
F.3d at 1068.

12a
Appendix A
It is on this basis that the court distinguished Direct
Marketing. The penalty in that case “was not itself a
tax, or at least it was never argued or suggested that the
penalty in that case was itself a tax.” Id. at 1069. The court
explained that “[i]f the penalty here were not itself a tax,
the [AIA] would not bar this suit. But because this penalty
is deemed a tax by Section 6671(a), the [AIA] bars this
suit as premature.” Id. In other words, unlike in Direct
Marketing, the tax in Florida Bankers was not “two or
three steps removed from the regulation in question.” Id.
Rather, “because the Code define[d] the penalty as a tax, a
tax [was] imposed as a direct consequence of violating the
regulation.” Id. And “[i]nvalidating the regulation would
directly bar collection of that tax.” Id. (emphasis added).
This distinction put the complaint in Florida Bankers “at
the heartland of the [AIA].” Id. at 1070.
With regard to “for the purpose of,” the court rejected
the argument that even if the penalty were a tax, the
case was still not within the purview of the AIA because
the plaintiffs sought relief not from the penalty but from
the underlying regulatory mandate. Id. (“[Plaintiffs]
contend instead that they are seeking relief from a
regulatory mandate that exists separate and apart from
the assessment or collection of taxes.”). The court held
that “plaintiffs cannot evade the [AIA] by purporting to
challenge only the regulatory aspect of a regulatory tax;”
the AIA “cannot be sidestepped by such nifty wordplay.”
Id. And in doing so, the court relied on (1) a line of
Supreme Court cases describing the “circular” nature
of that argument and looking only to whether the relief
sought “would necessarily preclude” the collection of taxes

13a
Appendix A
within the meaning of the AIA, Bob Jones Univ., 416 U.S.
725, 732, 94 S. Ct. 2038, 40 L. Ed. 2d 496 (1974); see also
Alexander v. “Americans United”, Inc., 416 U.S. 752, 760,
94 S. Ct. 2053, 40 L. Ed. 2d 518 (1974); Bailey v. George,
259 U.S. 16, 42 S. Ct. 419, 66 L. Ed. 816, 1922-2 C.B.
342, T.D. 3347 (1922), (2) the Supreme Court’s “recent[]
indicat[ion]” in NFIB that that argument is meritless, see
567 U.S. at 546, and (3) the policy implications of accepting
that argument, see Fla. Bankers, 799 F.3d at 1071 (“A
taxpayer could almost always characterize a challenge
to a regulatory tax as a challenge to the regulatory
component of the tax. That would reduce the [AIA] to dust
in the context of challenges to regulatory taxes.”). Id. at
1070-71. Thus, the court refused to give any significance
to the part of the regulation the plaintiffs purportedly
sought to challenge.
Based on these definitions, the court in Florida
Bankers held that the AIA barred the plaintiffs’ suit.
The plaintiffs had sought to enjoin the enforcement of
an IRS regulation requiring banks to report certain
interest payments made to account holders. Id. at 1067.
The court began with its holding that the relevant tax for
its AIA analysis was the penalty that the banks would
have to pay if they violated the reporting requirements,
not the account-holder taxes the collection of which those
requirements were designed to facilitate. Id. at 1068.
The court then reasoned that the plaintiffs’ suit would,
if successful, “invalidate the reporting requirement and
restrain (indeed eliminate) the assessment and collection
of the tax paid for not complying with [it].” See id. at
1067, 1072. Accordingly, the suit was “for the purpose of

14a
Appendix A
restraining the assessment or collection of a tax,” and the
merits could not be reached. Id.
Against this backdrop, Plaintiff asserts that Direct
Marketing controls, analogizing the TIA to the AIA and
the Colorado law to the Notice. Defendants assert that
Florida Bankers, distinguishing Direct Marketing, is
more persuasive. We agree with Defendants, as Florida
Bankers is directly on point, consistent with Direct
Marketing, and in accordance with a broader survey of
Supreme Court and circuit court precedent. Plaintiff’s
reply brief provides a useful structure for illustrating
this conclusion.
First, Plaintiff contends that “[t]he purpose of this
suit is not to restrain the assessment or collection of
taxes.” (Reply Brief for Appellant at 6.) Plaintiff argues
that the penalties imposed for violation of the Notice’s
requirements are not taxes for purposes of the AIA, and
that the only remaining taxes that the Notice implicates
are the “nebulous down-stream” taxes of third parties.
(Id.) This argument is unpersuasive.
The third-party taxes the collection of which the Notice
is designed to facilitate are not the relevant taxes for this
AIA analysis. The relevant taxes are instead the penalties
imposed for violation of the Notice’s requirements. Like
the penalty in Florida Bankers, the penalties here are all
located in Chapter 68, Subchapter B of the Tax Code, and
as a result are treated as taxes themselves for purposes
of the AIA. The Supreme Court has explained as much.
See NFIB, 567 U.S. at 544. We have held as much. See

15a
Appendix A
Thomas More Law Ctr. v. Obama, 651 F.3d 529, 540 (6th
Cr. 2011), abrogated on other grounds by NFIB, 567 U.S.
at 519.5 And other circuits have consistently held as much.
See, e.g., Nuttelman v. Vossberg, 753 F.2d 712, 714 (8th
Cir. 1985); Herring v. Moore, 735 F.2d 797, 798 (5th Cir.
1984); Souther v. Mihlbachler, 701 F.2d 131, 132 (10th Cir.
1983); Prof’l Eng’rs, Inc. v. United States, 527 F.2d 597,
599 (4th Cir. 1975).
Second, Plaintiff contends that “[t]he purpose of
this suit is not to restrain the assessment or collection
of taxes.” (Rely Brief for Appellant at 11.) Plaintiff
5. In Thomas More Law Ctr., we explained at length that:
In many contexts, the law treats “ ta xes” and
“penalties” as mutually exclusive. . . . [but] [o]ther
provisions of the Internal Revenue Code, to be sure,
show that some “penalties” amount to “taxes” for
purposes of the [AIA]. Not surprisingly, for example,
Chapter 68 of the Revenue Code imposes “penalties”
on individuals who fail to pay their “taxes.” Less
obviously, but to similar effect, subchapter B of
chapter 68 of the Revenue Code imposes other
“penalties” related to the enforcement of traditional
taxes. Under section 6671, “any reference in this title
to ‘tax’ imposed by this title shall be deemed also
to refer to the penalties and liabilities provided by
[subchapter B of chapter 68].” All of these “penalties”
thus count as “taxes,” including for purposes of the
[AIA]. Otherwise, the recalcitrant tax protester could
sue to preempt collection of a substantial monetary
charge (accumulated penalties and interest) but not
what will often be a smaller charge (the tax owed).
651 F.3d at 539 (internal citations omitted).

16a
Appendix A
argues that the “information gathering” and “records
maintenance” requirements of the Notice are focused on
the act of reporting to the taxing authority information
used to determine tax liability, not the discrete, subsequent
acts of assessment or collection of that liability. (Id.) This
argument misses the mark.
While it is true that information reporting is a
separate step in the taxation process that occurs before
assessment or collection, see Direct Marketing, 135 S. Ct.
at 1130, Plaintiff’s argument presupposes that the relevant
taxes in this AIA analysis are the third-party taxes the
collection of which the Notice is designed to facilitate. As
previously discussed, that is incorrect. Like the challenged
regulation in Florida Bankers, the Notice is indeed “two
or three steps removed” from any third-party taxes. 799
F.3d at 1069. But once it is established that the relevant
tax is the penalty imposed for violation of the Notice’s
requirements, it becomes clear that Plaintiff’s suit is
focused on that tax’s assessment or collection. Plaintiff’s
suit seeks to invalidate the Notice, which is the entire basis
for that tax. If successful, Plaintiff’s suit would “restrain
(indeed eliminate)” it. Id. at 1067.
Third, Plaintiff contends that “[t]he purpose of this
suit is not to restrain the assessment or collection of taxes.
(Reply Brief for Appellant at 15.) Plaintiff argues that
under the narrower definition of “restrain” articulated
in Direct Marketing, its suit would not restrain any tax’s
assessment or collection. This argument also misses the
mark, for the same reason as Plaintiff’s prior argument.

17a
Appendix A
If the relevant taxes in this AIA analysis were the
third-party taxes, and if we decided that the Direct
Marketing definition of “restrain” should be extended
from the TIA to the AIA, then Plaintiff’s argument
would likely have merit. Yet, as previously discussed, the
former proposition is incorrect. And as a result, we need
not engage with the latter. Even assuming arguendo that
the Direct Marketing definition should be extended to the
AIA,6 Plaintiff’s suit “would have the effect of restraining
— fully stopping” the IRS from collecting the penalties
imposed for violating the Notice’s requirements. See Maze
v. Internal Revenue Serv., 862 F.3d 1087, 1092, 430 U.S.
App. D.C. 250 (D.C. Cir. 2017) (emphasis added) (also
assuming extension of the Direct Marketing definition
arguendo). Plaintiff admits as much. (See Rely Brief for
Appellant at 7) (“[I]t is true that the IRS certainly could
never collect any penalties . . . for noncompliance if Notice
2016-66 is struck down.”).
6. Whether the Direct Marketing definition should be extended
from the TIA to the AIA is unclear. The Tenth Circuit chose not to
do so in Green Solution Retail, Inc. v. United States, 855 F.3d 1111,
1118 (10th Cir. 2017). In that case, the court explained that one of
the two reasons behind the Supreme Court’s choice of the narrower
definition in Direct Marketing was the fact that it was surrounded by
“enjoin” and “suspend,” both of which are terms of art in equity, and
both of which are absent from the AIA. Id. at 1119. In light of that
difference, the court in Green Solution held that Direct Marketing
did not implicitly overrule its prior cases applying the broad definition
of “restrain.” Id. at 1116. This circuit has similar precedent. See, e.g.,
Dickens v. United States, 671 F.2d 969, 971 (6th Cir. 1982) (“The
[AIA] is equally applicable to activities which are intended to or
may culminate in the assessment or collection of taxes.”) (internal
quotations omitted).

18a
Appendix A
Fourth, Plaintiff contends that “[t]he purpose of
this suit is not to restrain the assessment or collection
of taxes.” (Reply Brief for Appellant at 18.) Plaintiff
argues that its suit is challenging the Notice’s regulatory
requirement and not the penalty. This argument, though
intuitive at first glance, is unpersuasive.
Any distinction that once existed in the Supreme
Court’s AIA jurisprudence between “regulatory” taxes
and “revenue-raising” taxes appears to have been
“abandoned.” Fla. Bankers, 799 F.3d at 1070; see also
Bob Jones, 416 U.S. at 741 n.12. In Bob Jones, the Court
instead emphasized the effect of the plaintiff’s suit. It held
that where the relief sought would “necessarily preclude”
the assessment or collection of the relevant tax, the suit
“falls squarely within the literal scope” of the AIA and
federal courts lack jurisdiction over it. Bob Jones, 416 U.S.
at 731. Yet, the Court has made clear that the purpose
of the suit is still a factor in any AIA analysis. In Bob
Jones, the Court noted that there was little doubt that a
“primary purpose of [the suit]” was to prevent assessment
or collection of the relevant tax, regardless of how the
challenge was characterized. Id. at 738. And in Alexander,
the Court similarly noted that the “obvious purpose of
[the suit]” was to prevent assessment or collection of
the relevant tax, regardless of how the challenge was
characterized. 416 U.S. at 761.
The Court thus seems willing to infer a purpose to
restrain the assessment or collection of taxes in instances
where it appears that the plaintiff is — in the words of
the D.C. Circuit — trying to “sidestep” the AIA with

19a
Appendix A
“nifty wordplay.” Fla. Bankers, 799 F.3d at 1070; see also
Alexander, 416 U.S. at 761 (“The [plaintiff’s purported]
goal is merely a restatement of the [the plaintiff’s actual
goal] and can be accomplished only by restraining the
assessment and collection of a tax in contravention of [the
AIA].”); Z Street v. Koskinen, 791 F.3d 24, 28-30, 416 U.S.
App. D.C. 201 (D.C. Cir. 2015) (“In other words, unlike the
plaintiffs in Bob Jones and [Alexander], Z Street does not
have the ‘obvious purpose’ of [restraining the assessment
of collection of taxes].”). Relying largely on these cases,
the court in Florida Bankers paid even less mind to the
subjective purpose of the suit, holding unequivocally that
“[a] challenge to a regulatory tax comes within the scope
of the [AIA], even if the plaintiff claims to be targeting
the regulatory aspect of the regulatory tax.” 799 F.3d
at 1070-71. The court explained that a challenge to the
regulatory aspect of a regulatory tax is “necessarily” also
a challenge to the tax aspect of a regulatory tax because
invalidating the former would “necessarily” invalidate
latter. Id. at 1071.
Nevertheless, a panel of this Court recently seemed
prepared to recognize the distinction urged by Plaintiff
and subsequently rejected by the Florida Bankers
court. See Autocam Corp. v. Sebelius, 730 F.3d 618, 622
(6th Cir. 2013), vacated by Autocam Corp. v. Burwell,
573 U.S. 956, 134 S. Ct. 2901, 189 L. Ed. 2d 852 (2014)
(“The plaintiffs seek to enjoin a part of the coverage
requirements imposed by the [ACA] mandate, not the
IRS’s mechanism for collecting ‘tax’ from noncompliant
employers. Such suits are common in other regulatory
contexts . . . .”). But Autocam was decided before Florida

20a
Appendix A
Bankers, dedicated few words to its AIA analysis, and in
any event, having been vacated by the Supreme Court, is
no longer good law. See Hill v. Marshall, 962 F.2d 1209,
1213 (6th Cir. 1992). Additional cases cited by Plaintiff
and by the dissent in Florida Bankers in support of this
distinction are similarly unhelpful.7
Ultimately, especially in light of the Supreme Court’s
rule favoring “clear boundaries” in the interpretation of
jurisdictional statutes, see Direct Marketing, 135 S. Ct.
at 1131, we find the D.C. Circuit’s recent, unequivocal
pronouncement on this issue in Flor ida Bankers
persuasive. As the Supreme Court has explained “time
and again,” the AIA is “more than a pleading exercise,”
and to allow Plaintiff’s argument to succeed would “reduce
the [AIA] to dust in the context of challenges to regulatory
taxes.” Fla. Bankers, 799 F.3d at 1071. A challenge to a
regulatory tax comes within the scope of the AIA, even if
the plaintiff claims to be targeting the regulatory aspect of
7. In Seven-Sky v. Holder, 661 F.3d 1, 8-9, 398 U.S. App. D.C.
134 (D.C. Cir. 2011), abrogated on other grounds by NFIB, 567
U.S. at 519, the D.C. Circuit noted that “[t]he harms appellants
allege . . . exist as a result of the [ACA coverage] mandate, not the
penalty. . . . The individual mandate and the shared responsibility
payment create different legal obligations, for different categories
of people, at different times.” But the D.C. Circuit’s more recent
decision in Florida Bankers deemed that passage dicta. See 799 F.3d
at 1072 n.3. Additionally, in Korte v. Sebelius, 735 F.3d 654, 669 (7th
Cir. 2013) and Hobby Lobby Stores, Inc. v. Sebelius, 723 F.3d 1114,
1127 (10th Cir. 2013), the courts emphasized that the regulation at
issue was a separate provision of the U.S. Code structured not as a
predicate to the imposition of a tax, but as a mandate enforceable by
a variety of different mechanisms. That is not the case here.

21a
Appendix A
the regulatory tax, because a challenge to the regulatory
aspect of a regulatory tax is necessarily also a challenge
to the tax aspect of a regulatory tax. Id. Invalidating the
former would “necessarily” invalidate the latter. Id.
In sum, we hold that Plaintiff’s complaint seeking
to enjoin the enforcement of the Notice is properly
characterized as a “suit for the purpose of restraining the
assessment or collection of any tax.” RYO, 696 F.3d at 471
(quoting 26 U.S.C. § 7421(a)). Thus, Plaintiff’s complaint
is within the purview of the AIA and the district court
does not have subject matter jurisdiction over it unless
an exception applies. 8
8. The dissent poses a hypothetical that it finds problematic
in light of our holding: a reporting requirement discriminatorily
imposed upon a protected class and enforced by a penalty located
in Chapter 68, Subchapter B of the Tax Code. See Dis. Op. at 19.
According to the dissent, the AIA could not bar a preemptive
challenge to this requirement, “without warping the meaning of the
statute beyond recognition,” at least in part because the purpose
of the suit plainly would be “to end discriminatory action by the
Government,” not to enjoin the assessment or collection of a tax. Id.
What troubles the dissent about its hypothetical result is not
entirely clear. To the extent that it is the clarity of the purpose of
such a suit that troubles the dissent, the same purpose would clearly
underlie, for instance, a preemptive challenge to tax investigations
discriminatorily targeted at a protected class; yet that challenge
would likely be barred by the AIA. See, e.g., Clavizzao v. United
States, 706 F. Supp. 2d 342, 346 (S.D.N.Y. 2009) (“[U]nder the
[AIA], a plaintiff cannot even seek an injunction preventing the
IRS from investigating tax liabilities in an allegedly discriminatory
or harassing fashion.”). To the extent that it is the constitutional
nature of such a suit that troubles the dissent, “decisions of [the
Supreme] Court make it unmistakably clear that the constitutional

22a
Appendix A
2.

Whether this case falls into an exception
to the AIA

As noted above, the statutory and judicial exceptions
to the AIA are few and circumscribed. See RYO, 696
F.3d at 471. Plaintiff asserts that this case falls into the
judicial exception created by the Supreme Court in South
Carolina v. Regan, 465 U.S. 367, 104 S. Ct. 1107, 79 L. Ed.
2d 372 (1984). In that case, South Carolina sought to enjoin
a federal law that made interest on state-issued bearer
bonds taxable. Id. at 370. The Court allowed the merits
of this challenge to be reached, even though it was within
the purview of the AIA, because there was no “alternative
legal avenue” by which South Carolina could challenge
the legality of the tax. Id. at 373. South Carolina did not
bear the tax itself — the bondholders did — and as a
result South Carolina lacked the legal avenues available
to the bondholders. Id. at 378. Without a newly crafted
exception to the AIA, it had no way to challenge the law’s
constitutionality. Id.

nature of a taxpayer’s claim . . . is of no consequence” under the AIA;
“the taxpayer must succumb to an unconstitutional tax, and seek
recourse only after it has been unlawfully exacted.” United States
v. Clintwood Elkhorn Min. Co., 553 U.S. 1, 10, 128 S. Ct. 1511, 170
L. Ed. 2d 392 (2008) (quotation omitted) (alteration in original). And
to the extent that it is the treatment of certain penalties as taxes for
purposes of the AIA that troubles the dissent, we are bound by the
Supreme Court’s allowance of that practice, whatever its merits or
shortcomings. See NFIB, 567 U.S. at 544 (“Congress can, of course,
describe something as a penalty but direct that it nonetheless be
treated as a tax for purposes of the [AIA].”).

23a
Appendix A
However, as these facts suggest, and as we have
explained, “this exception is very narrow.” RYO, 696
F.3d at 472. “Because of the strong policy animating the
[AIA], and the sympathetic, almost unique facts in South
Carolina, courts have construed the South Carolina
exception very narrowly, undermining [the] plaintiff’s
efforts to fit its own claims within the confines of this
exception.” Id. (quotation omitted). As in RYO, this case “is
distinguishable from South Carolina in various ways.” Id.
Most significantly, the Supreme Court contrasted
the facts of South Carolina with cases in which plaintiffs
have “the alternative remedy of a suit for a refund.” 465
U.S. at 374-75; accord RYO, 696 F.3d at 472. Plaintiff does
not contest that it has this alterative remedy. Rather,
Plaintiff challenges whether that remedy is sufficiently
meaningful. Plaintiff contends that having to “break the
law” by violating the Notice, and then sue for a refund, is
“no remedy at all.” (Brief for Appellant at 38-40.) Contrary
to Plaintiff’s contention however, that is exactly what
the AIA is designed to require. The AIA “serves two
related purposes,” Dickens v. United States, 671 F.2d
969, 971 (6th Cir. 1982), “to permit the United States to
assess and collect taxes alleged to be due without judicial
intervention, and to require that the legal right to disputed
sums be determined in a suit for refund.” Williams
Packing, 370 U.S. 1 at 7, 82 S. Ct. 1125, 8 L. Ed. 2d 292.
Thus, we hold that Plaintiff’s complaint does not fall into
the South Carolina exception to the AIA.

24a
Appendix A
CONCLUSION
The broader legal context in which this case has been
brought is not lost on this Court. Defendants “do not
have a great history of complying with APA procedures,
having claimed for several decades that their rules
and regulations are exempt from those requirements.”
Hickman & Gerska, supra, at 1712-13. And despite the
jurisdictional nature of this appeal, Plaintiff has made its
thoughts on the merits abundantly clear, emphasizing that
“Notice 2016-66’s Issuance and Enforcement is an Obvious
Violation of the APA.” (Reply Brief for Appellant at 4.) But
that does not in and of itself give federal district courts
subject matter jurisdiction over suits seeking to enjoin
the assessment or collection of taxes. Absent further
instruction from Congress or the Supreme Court, such
suits are barred by the AIA.
For the reasons set forth above, we AFFIRM the
district court’s dismissal.

25a
Appendix A
dissent
NALBANDIAN, Ci r c u it Judge , d i s sent i ng.
Ordinarily, administrative law does not intend to leave
regulated parties caught between a hammer and an
anvil. That is why the Supreme Court has recognized a
norm in favor of pre-enforcement judicial review of final
agency action. See, e.g., Abbott Laboratories v. Gardner,
387 U.S. 136, 140, 87 S. Ct. 1507, 18 L. Ed. 2d 681 (1967).
Judicial review obviates the dilemma of either complying
with potentially unlawful (and onerous) regulations or
“risk[ing] prosecution.” Id. at 152. But that is the choice
CIC Services is left with today. The majority holds that
the Anti-Injunction Act bars us from reviewing CIC’s
pre-enforcement challenge of an Internal Revenue Service
reporting requirement.1 I disagree.
The Anti-Injunction Act bars all “suit[s] for the
purpose of restraining the assessment or collection of
any tax.” 26 U.S.C. § 7421(a). This provision ensures the
“prompt collection” of the Government’s “lawful revenue.”
Enochs v. Williams Packing & Nav. Co., 370 U.S. 1, 7, 82 S.
Ct. 1125, 8 L. Ed. 2d 292 (1962). It allows the Government
“to assess and collect taxes alleged to be due without
judicial intervention” by requiring taxpayers to seek
relief in a refund suit, after the disputed tax is paid. Id.
The question here is whether CIC’s challenge falls within
1. Here, references to the Anti-Injunction Act also refer to
the tax exception to the Declaratory Judgment Act, both of which
are “to be interpreted coterminously.” Ecclesiastical Order of the
ISM of AM, Inc. v. Internal Revenue Serv., 725 F.2d 398, 404-05
(6th Cir. 1984).

26a
Appendix A
this statute: Is it a “suit for the purpose of restraining the
assessment or collection of any tax?” 26 U.S.C. § 7421(a).
Perhaps at some level of abstraction, it could be. CIC
seeks to enjoin an IRS notice that requires it to report
certain transactions and to maintain a (reportable) list
of clients who engage in those transactions. See Notice
2016-66, 2016-47 I.R.B. 745. CIC contends that the IRS
promulgated the notice in violation of the Administrative
Procedure Act and the Congressional Review Act.
Of course, the reports themselves are not taxes. Nor
do they necessarily contain information showing that
CIC or its clients owe taxes. And CIC does not allege
tax liability as its injury. Rather, it takes issue with the
hundreds of hours of labor and tens of thousands of dollars
the requirement will cost to comply with. And all so that,
CIC argues, the IRS can unfairly and publicly portray its
“industry as one filled with crooked operatives and tax
scammers.” Put simply, this is not a dispute over taxes.
That said, the IRS promulgated the notice because the
agency “lack[s] sufficient information to identify which”
transactions have a potential for tax avoidance and which
do not. 2016-47 I.R.B. 745. Presumably, once the IRS
uses the reported information to identify which ones do,
there will be tax consequences for some taxpayers. So it
is plausible that CIC’s challenge could eventually hinder
the assessment and collection of taxes down the road.
But is that enough to trigger the Anti-Injunction Act?
According to Direct Marketing Ass’n v. Brohl, 135 S. Ct.

27a
Appendix A
1124, 191 L. Ed. 2d 97 (2015), the answer is a resounding
“No.” What Direct Marketing taught us in interpreting the
similarly worded Tax-Injunction Act is that the text of the
statute is paramount. And a suit to enjoin the enforcement
of a reporting requirement is not a “suit for the purpose
of restraining the assessment or collection of any tax.”
26 U.S.C. § 7421(a) (emphases added).
As the Supreme Court explained there, “information
gathering” (such as the reporting requirement here) is “a
phase of tax administration procedure that occurs before
assessment . . . or collection.” Direct Marketing, 135 S. Ct.
at 1129 (emphasis added). “’Assessment’ is the next step
in the process, and it refers to the official recording of a
taxpayer’s liability.” Id. at 1130. But that does not occur
until “after information relevant to the calculation of that
liability is reported to the taxing authority.” Id. (emphasis
added). And “collection” comes even later. See id. It is the
“act of obtaining payment of taxes due.” Id. To be sure, the
Court acknowledged that “assessment” and “collection”
could be understood more broadly. See id. at 1130-31. But
no matter how broadly those terms might stretch, they
refer to phases in the process distinct from “information
gathering.” See id.
And so, the Court reasoned, the Tax-Injunction
Act “is not keyed to all activities that may improve [the
Government’s] ability to assess and collect taxes.” Id. at
1131. “Such a rule would be inconsistent not only with the
text of the statute, but also with our rule favoring clear
boundaries in the interpretation of jurisdictional statutes.”
Id. District courts may not “restrain”—i.e., “enjoin,”

28a
Appendix A
“stop,” or “prohibit” 2 —the “assessment” or “collection”
of taxes. Id. at 1132. “[A]nd enforcement of . . . reporting
requirements is none of these.” Id. at 1131.
Although Direct Marketing appears to settle the
matter, the Government notes a distinction between
that case and this one. In Direct Marketing, the penalty
that enforced the reporting requirement “was not itself
a tax”—or at least no one argued that it was. Florida
Bankers Ass’n v. U.S. Dep’t of the Treasury, 799 F.3d
1065, 1069, 419 U.S. App. D.C. 31 (D.C. Cir. 2015). Here,
2. In Direct Marketing, the Court opted to give “restrain” this
narrower meaning as opposed to its broader meaning, which would
apply to suits that “merely inhibit” assessment or collection. 135 S.
Ct. at 1132. The majority nevertheless cautions that it is “unclear”
that “restrain” carries the same meaning in the Anti-Injunction Act
that it does in the Tax-Injunction Act. But the Court explained that
the words used in both statutes “are generally used in the same way.”
Id. at 1129. It also justified giving “restrain” its narrower meaning, in
part, on the fact that, in the Tax-Injunction Act, “restrain” operates
“on a carefully selected list of technical terms—’assessment, levy,
collection’—not on an all-encompassing term, like ‘taxation.’” Id.
at 1132. To give restrain its broader meaning, the Court reasoned,
“would be to defeat the precision of that list, as virtually any court
action related to any phase of taxation might be said to ‘hold back’
‘collection.’” Id. The only difference between the Anti-Injunction Act
and the Tax-Injunction Act in that respect is that the former omits
the word “levy” from its text. Finally, the Court explained that the
“narrower definition is consistent with the rule that ‘[j]urisidictional
rules should be clear.’” Id. at 1133 (quoting Grable & Sons Metal
Products, Inc. v. Darue Engineering & Mfg., 545 U.S. 308, 321,
125 S. Ct. 2363, 162 L. Ed. 2d 257 (2005) (Thomas, J., concurring)
(alteration in original)). These reasons militate in favor of giving
“restrain” its narrower meaning in the Anti-Injunction Act, too.

29a
Appendix A
in contrast, the reporting requirement is enforced by
penalties in Chapter 68, Subchapter B of the Tax Code.
See 26 U.S.C. §§ 6707, 6707A, 6708. And the Tax Code
deems those penalties “taxes.” 26 U.S.C. § 6671(a).
So the specific issue here is whether a reporting
requirement that is enforced by a “tax” is shielded from
pre-enforcement judicial review under the Anti-Injunction
Act. The majority adopts the reasoning of Florida
Bankers to answer that question affirmatively.
In Florida Bankers, a divided panel of the D.C. Circuit
held that the Anti-Injunction Act barred a similar suit
challenging the legality of a reporting requirement that
the IRS enforced with a tax. See 799 F.3d at 1072. That
is because, the court reasoned, the tax is “imposed as a
direct consequence of violating the regulation,” and so
“[i]nvalidating the regulation would directly bar collection
of that tax.” Id. at 1069. For the D.C. Circuit majority, this
distinguished the case from Direct Marketing because
“the tax . . . is not two or three steps removed from the
regulation in question.” Id. In other words, there was no
attenuation between the assessment and collection of the
tax, on the one hand, and invalidating the regulation on
the other.
That misses the mark. Enjoining a reporting
requirement enforced by a tax does not necessarily bar the
assessment or collection of that tax. That is because the
tax does not result from the requirement per se. The only
way for the IRS to assess and collect the tax is for a party
to violate the requirement. So enjoining the requirement

30a
Appendix A
only stops the assessment and collection of the tax in the
sense that a party cannot first violate the requirement and
then become liable for the tax. Surely, this is the kind of
attenuated relationship between “restrain,” “assessment,”
and “collection” that Direct Marketing rejected. At best,
the difference is one of degree—there may not be three
steps of attenuation here or in Florida Bankers, but there
certainly is attenuation. 3
The Flor ida Bankers court would reject this
reasoning as “nifty wordplay.” Id. at 1070. To show why
it is not, consider this hypothetical: Imagine if the IRS
notice here unlawfully discriminated against a group of
Americans by subjecting only that group to its reporting
requirement. The logic of Florida Bankers would require
us to characterize an Equal Protection challenge to
the discriminatory notice as a “suit for the purpose
of restraining the assessment or collection of [a] tax”
3. And, unsurprisingly, commentators have recognized the
tension between Florida Bankers and Direct Marketing. See, e.g.,
Kristin E. Hickman & Gerald Kerska, Restoring the Lost AntiInjunction Act, 103 Va. L. Rev. 1683, 1685 (2017) (“Florida Bankers
also arguably contradicts the Supreme Court’s reading in Direct
Marketing Ass’n v. Brohl of the similarly worded Tax Injunction Act
. . . .”); Stephanie Hunter McMahon, Pre-Enforcement Litigation
Needed for Taxing Procedures, 92 Wash. L. Rev. 1317, 1368
(2017) (“Direct Marketing is seemingly at odds with another case,
discussed in the prior Part, Florida Bankers Ass’n v. Department
of Treasury.”); Patrick J. Smith, D.C. Circuit in Florida Bankers
Misapplies Anti-Injunction Act, 149 Tax Notes 1493, 1493 (Dec. 21,
2015) (“This report explains how the majority opinion in Florida
Bankers is inconsistent with Direct Marketing, as well as D.C. Circuit
precedent on the AIA.”).

31a
Appendix A
simply because it is enforced by a penalty in Chapter 68,
Subchapter B of the Tax Code.4 Intuitively, we know that
description cannot stand without warping the meaning
of the statute beyond recognition. No one thinks that
the plaintiffs in that hypothetical case would care about
enjoining the collection of a tax. The purpose of the suit
would be to end discriminatory action by the Government.
And yet the tax in that hypothetical is no further removed
from the notice there than the tax in this case is removed
from the notice here.
The Florida Bankers court dismissed an argument
based on similar reasoning, stating, “plaintiffs cannot
evade the Anti-Injunction Act by purporting to challenge
only the regulatory aspect of a regulatory tax.” Id. In
doing so, the court mainly relied on Bob Jones University
v. Simon, 416 U.S. 725, 94 S. Ct. 2038, 40 L. Ed. 2d 496
(1974) and Alexander v. “Americans United”, Inc., 416
U.S. 752, 94 S. Ct. 2053, 40 L. Ed. 2d 518 (1974). Both
cases involved non-profit organizations that brought
constitutional challenges to IRS letter-rulings revoking
their tax-exempt status. See Bob Jones, 416 U.S. at 73536; Alexander, 416 U.S. at 755-56. And the plaintiffs in
both cases argued that the purpose of their suits was “to
ensure that donors seeking tax deductions would continue
to contribute to their organizations,” not to restrain the
assessment or collection of taxes. Seven-Sky v. Holder,
661 F.3d 1, 10, 398 U.S. App. D.C. 134 (D.C. Cir. 2011),
4. To be sure, the court in Florida Bankers suggested that
the regulation would have to be “tax-related.” 799 F.3d at 1067. But,
as the hypothetical demonstrates, one can imagine any number of
pernicious regulations that could be made to fit that description.

32a
Appendix A
abrogated on other grounds by Nat’l Fed’n of Indep. Bus.
v. Sebelius, 567 U.S. 519, 132 S. Ct. 2566, 183 L. Ed. 2d
450 (2012).
But the critical distinction between those cases and this
one is that “challenges to IRS letter-rulings revoking taxexempt status are inextricably linked to the assessment
and collection of taxes.” Id. The direct consequence of the
IRS letter-rulings for both cases was that the organization
became liable for federal unemployment taxes. Bob
Jones, 416 U.S. at 730; Alexander, 416 U.S. at 755. In
fact, “the only injuries plaintiffs identified involved tax
liability.” Seven-Sky, 661 F.3d at 10. So the Supreme Court
unsurprisingly saw through the plaintiffs’ arguments and
held that each suit was barred by the Anti-Injunction Act
because, if successful, each would “necessarily preclude”
the collection of taxes. Bob Jones, 416 U.S. at 732; see also
Alexander, 416 U.S. at 761.
That is not the case here. The regulation that CIC
seeks to enjoin does not directly result in any tax liability.
Indeed, the IRS cannot even assess the tax unless Plaintiff
first violates the regulation. This attenuation means that,
unlike in Bob Jones or Alexander, an injunction does not
“necessarily preclude” an assessment or collection of
taxes. This also alleviates any worry that plaintiffs could
avoid the Anti-Injunction Act by always recharacterizing
their suits as challenges to a regulation instead of a tax.
Plaintiffs may make those arguments, but as in Bob Jones
and Alexander, they will often fail.

33a
Appendix A
The other case that the Florida Bankers court
substantially relied on, NFIB v. Sebelius, is not to the
contrary. There, the plaintiffs argued that the AntiInjunction Act should not apply since they were challenging
a regulatory mandate to purchase health insurance, not
the penalty for failing to purchase the insurance. Florida
Bankers, 799 F.3d at 1071. Though the Supreme Court
agreed that the Anti-Injunction Act did not apply, it did
so because it held that the penalty at issue was not a tax
under the statute. Id. The Florida Bankers court read
the decision to mean that “the Anti-Injunction Act would
have applied if the penalty were a tax under the Act.” Id.
It gave two reasons for reaching that conclusion. First,
it relied on the Supreme Court’s statement that because
the penalty was not a tax under the Anti-Injunction Act,
the statute did not apply, and so the Court could go on
to reach the merits. Id. Second, the court noted that the
Supreme Court failed to expressly address plaintiffs’
argument despite “the extensive briefing and [oral]
argument focused on [it].” Id.
But as Judge Henderson explained in her dissent,
the first reason falls victim to the fallacy of “denying
the antecedent.” Id. at 1080 (Henderson, J., dissenting).
Stated abstractly, it means one is wrong to assume that
because a conditional premise is true, so is its inverse. See
id. (citing New England Power Generators Ass’n, Inc. v.
FERC, 707 F.3d 364, 370, 404 U.S. App. D.C. 66 & n.3 (D.C.
Cir. 2013)). Stated in terms of this case, it means one is
wrong to assume that a suit implicating a tax triggers the
Anti-Injunction Act simply because a suit not implicating
a tax does not trigger the Anti-Injunction Act.

34a
Appendix A
On top of that, and again as Judge Henderson noted,
the first reason is not textually sound. Id. Even if a suit
implicates a tax, that does not mean it is necessarily barred
by the Anti-Injunction Act: “the suit may nonetheless not
seek to ‘restrain[] the assessment or collection’ of said tax.”
Id. (alteration in original) (quoting 26 U.S.C. § 7421(a)).
The second reason is inherently speculative and,
regardless, cuts in both directions. For it is just as likely
that the Supreme Court intentionally avoided the issue
since it was unnecessary to reach in that case. At bottom,
the NFIB Court never said that pre-enforcement review of
a regulatory mandate is barred under the Anti-Injunction
Act simply because it is enforced by a tax. A search for
that proposition in the opinion leaves one emptyhanded.
More importantly, the NFIB Court did not have
the benefit of its later decision in Direct Marketing.
We do. And there the Court did not mince its words:
“[E]nforcement of . . . reporting requirements is” neither
“assessment” nor “collection.” 135 S. Ct. at 1131. Nothing
in the Court’s decision causes me to think it would have
held differently if someone had argued that the $5 or $10
penalties in that case were taxes.
Under the majority’s decision, CIC now only has
two options: (1) acquiesce to a potentially unlawful
reporting requirement that will cost it significant money
and reputational harm or (2) flout the requirement, i.e.,
“break the law,” to the tune of $50,000 in penalties for each
transaction it fails to report. See 26. U.S.C. § 6707(a)-(b).
Only if it (or someone else) follows the latter path—and
only when (or if) the Government comes to collect the
penalty—will any court be able to pass judgment on the
legality of the regulatory action.

35a
Appendix A
Moreover, plaintiffs who do follow that path are
not only subject to financial penalties but also criminal
penalties. 5 The Tax Code makes it a misdemeanor for
any person who “willfully fails” to “make any return, keep
any records, or supply any information” required under
its title and its regulations. 26 U.S.C. § 7203. And it fines
that person $25,000 ($100,000 if it’s a corporation). See id.
In other words, the only lawful means a person has of
challenging the reporting requirement here is to violate
the law and risk financial ruin and criminal prosecution.
That is probably enough to test the intestinal fortitude
of anyone. And it leaves CIC in precisely the bind that
pre-enforcement judicial review was meant to avoid. See,
e.g., Free Enter. Fund v. Pub. Co. Accounting Oversight
Bd., 561 U.S. 477, 490, 130 S. Ct. 3138, 177 L. Ed. 2d 706
(2010) (“We normally do not require plaintiffs to ‘bet the
farm . . . by taking the violative action’ before ‘testing
the validity of the law.’”) (quoting MedImmune, Inc. v.
Genentech, Inc., 549 U.S. 118, 129, 127 S. Ct. 764, 166
L. Ed. 2d 604 (2007)); MedImmune, Inc., 549 U.S. at
128-29 (“[W]here threatened action by government is
concerned, we do not require a plaintiff to expose himself
to liability before bringing suit to challenge the basis for
the threat.”); Gardner v. Toilet Goods Ass’n, 387 U.S. 167,
172, 87 S. Ct. 1526, 18 L. Ed. 2d 704 (1967) (concluding
that a “proposed avenue of review [] beset with penalties
and other impediments [is] inadequate as a satisfactory
alternative to [pre-enforcement review]”).
5. If that seems like it must be wrong, think again. The
Government’s only response to whether it could criminally prosecute
a person seeking judicial review for failing to supply the required
information was that it was “not clear.” [Government’s Br. at 58.]

36a
Appendix A
That might not be so alarming if this predicament
was confined to this notice. But at least two commentators
predict that the reasoning of Florida Bankers would
apply to “most if not all Treasury regulations and IRS
guidance documents.” Kristin E. Hickman & Gerald
Kersa, Restoring the Lost Anti-Injunction Act, 103 Va.
L. Rev. 1683, 1685 (2017). The inevitable consequence of
our decision today is that “many” of those regulations
and guidance documents will be rendered “effectively
unreviewable.” Id. at 1686. In the process, something more
may be lost than the private stakes in each meritorious
case that would have otherwise been brought. And that is,
“public confidence in the quality and legitimacy of agency
action” for which judicial review was meant to serve as a
protective bulwark. Id.
And to what end? The chief “evil[]” the Anti-Injunction
Act sought to ward off was undue judicial “interfere[nce]
with the process of collecting the taxes on which the
government depends for its continued existence.” State R.
Tax Cases, 92 U.S. 575, 613, 23 L. Ed. 663 (1875). But the
reporting requirement here generates no revenue for the
Government. And the point of the penalty is to incentivize
compliance with the requirement—not to incentivize its
own assessment and collection. So it is not at all clear
to me that barring CIC’s suit serves the purpose of the
Anti-Injunction Act. Indeed, the opposite appears true.
If all this seems rather anomalous, that is because
it is. In the typical Anti-Injunction Act case, a plaintiff
seeks to prevent some imminent process of assessment
or collection relating to the taxes that he owes for a given
year. See, e.g., Tatar v. United States, No. 17-2088, 2018
U.S. App. LEXIS 10406, 2018 WL 2247497 at *1 (6th Cir.

37a
Appendix A
Apr. 24, 2018) (unpublished); Dunlap v. Lew, No. 16-3658,
2017 U.S. App. LEXIS 27874, 2017 WL 9496075 at *1 (6th
Cir. June 2, 2017) (unpublished). To seek judicial review,
all the plaintiff must do is (leaving aside some procedural
hoops) pay the tax and sue for a refund. See Dunlap,
2017 U.S. App. LEXIS 27874, 2017 WL 9496075 at *2. In
that way, the Anti-Injunction Act’s goal of ensuring the
Nation’s efficient collection of tax revenues is fulfilled, and
the plaintiff has every incentive to seek judicial review if
he has a meritorious claim.
Contrast that with the situation here: the path to
judicial review is fraught with threats of penalties, fines,
and prosecution—all intended to encourage compliance
with a reporting requirement that collects not a penny
for the Government. The anomalous implications of
today’s decision should convince us that we have given an
anomalous reading to the Anti-Injunction Act.
For these reasons, I would hold that the AntiInjunction Act does not bar CIC’s suit.

38a
Appendix B
Appendix B — MEMORANDUM
OPINION of
the UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF TENNESSEE,
FILED NOVEMBER 2, 2017
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT KNOXVILLE
November 2, 2017, Filed
Case No. 3:17-cv-110
CIC SERVICES, LLC, and RYAN, LLC,
Plaintiffs,
v.
INTERNAL REVENUE SERVICE,
DEPARTMENT OF TREASURY, and
THE UNITED STATES OF AMERICA,
Defendants.
Judge Travis R. McDonough
Magistrate Judge H. Bruce Guyton
MEMORANDUM OPINION
Before the Court is a motion to dismiss filed
by Defendants, the Internal Revenue Service, the
Department of Treasury, and the United States of

39a
Appendix B
America. (Doc. 25.) Also before the Court is Plaintiffs
CIC Services, LLC (“CIC”), and Ryan, LLC’s (“Ryan”)
conditional motion for leave to amend. (Doc. 26.) For the
reasons stated hereafter, Defendants’ motion to dismiss
(Doc. 25) will be GRANTED, and Plaintiffs’ conditional
motion for leave to amend (Doc. 26) will be DENIED.
I.

BACKGROUND

On November 1, 2016, the Internal Revenue Service
(“IRS”) issued IRS Notice 2016-66 (the “Notice”). In the
Notice, the IRS expressed concern that “micro-captive
transactions”1 had the potential for tax avoidance or
evasion and classified these transactions as “transactions
of interest” for the purposes of 26 C.F.R. § 1.6011-4 and
26 U.S.C. §§ 6011 and 6012. (Doc. 1-1, at 2-3.) Based on
this classification, the Notice directs that: (1) “[p]ersons
entering into these transactions on or after November 2,
2006, must disclose the transaction” to the IRS; and (2)
“[m]aterial advisors who make a tax statement on or after
November 2, 2006, with respect to transactions entered
into on or after November 2, 2006, have disclosure and
maintenance obligations under §§ 6111 and 6112” of the
Internal Revenue Code. 2 (Id. at 12.) The Notice further
provides that taxpayers and material advisors are
9-11.

1. For a definition of the transactions at issue, see Doc. 1-1, at

2. A material advisor is any person “who provides any material
aid, assistance, or advice with respect to organizing, managing,
promoting, selling, implementing, insuring, or carrying out any
reportable transaction,” and who receives gross income for such
activities in excess of certain thresholds. 26 U.S.C. § 6111(b)(1).

40a
Appendix B
required to file a disclosure statement regarding these
transactions prior to January 30, 2017, and that persons
who fail to make required disclosures “may be subject to
. . . penalty” under 26 U.S.C. §§ 6707(a), 6707A, and 6708(a).
(Id. at 13, 15.) Finally, the Notice requests comment “on
how the transaction might be addressed in published
guidance.” (Id. at 16.) On December 30, 2016, the IRS
issued Notice 2017-08, which extended the deadline for
required disclosure of the transactions at issue to May 1,
2017. (Doc. 1-2.)
On March 27, 2017, Plaintiffs initiated the present
action. 3 (Doc. 1.) According to the allegations in their
verified complaint, CIC is “a manager of captive insurance
companies,” and Ryan is a “broad-based accounting,
consulting, and tax services corporation, which also
manages captive insurance companies.” (Id. at 3.) In
these capacities, Plaintiffs assert that they are subject
to the Notice’s disclosure requirements for material
advisors and that complying with the Notice’s disclosure
requirements will force them to incur significant costs.
(Id. at 10.) Plaintiffs assert, however, that the Notice: (1)
constitutes a “legislative-type rule” that fails to comply
with mandatory notice-and-comment requirements
3. On December 28, 2016, CIC filed a similar complaint, which
was assigned to District Court Judge J. Ronnie Greer. (See Case No.
3:16-cv-709.) On December 30, 2016, CIC voluntarily dismissed its
previously filed complaint. CIC asserts that it voluntarily dismissed
that case immediately following the IRS’s issuance of Notice 201708, hoping that the IRS would ultimately eliminate or substantially
modify the reporting requirements set forth in the Notice. (Doc. 9,
at 11.)

41a
Appendix B
under the Administrative Procedures Act (“APA”), 5
U.S.C. § 533, et seq.; (2) is “arbitrary and capricious and
ultra vires in nature”; and (3) fails to comply with the
requirements of the Congressional Review of Agency
Rule-Making Act, 5 U.S.C. § 801, because the IRS failed to
submit it to Congress and the Comptroller General. (Id. at
2.) Based on these allegations, Plaintiffs seek, among other
things, a declaration under the Declaratory Judgment
Act (“DJA”), 28 U.S.C. § 2201, that the Notice is invalid
and an injunction prohibiting the IRS from enforcing the
disclosure requirements set forth in the Notice based on
the IRS’s failure to comply with the APA’s notice-andcomment requirements.
Shortly after filing their complaint, Plaintiffs moved
the Court for a preliminary injunction prohibiting the IRS
from enforcing the disclosure requirements set forth in the
Notice. (See Doc. 8.) On April 21, 2017, the Court denied
Plaintiffs’ motion for preliminary injunction, reasoning, in
part, that Plaintiffs were unlikely to succeed on the merits
of their claims because such claims are likely barred by
the Anti-Injunction Act (“AIA”), 26 U.S.C. § 7421. On May
30, 2017, Defendants moved to dismiss Plaintiffs’ claims,
arguing, among other things, that the Court lacks subjectmatter jurisdiction. (Doc. 25.) Defendants’ motion is now
ripe for the Court’s review.
II. STANDARD OF LAW
“A motion to dismiss for lack of subject matter
jurisdiction under Federal Rule of Civil Procedure 12(b)
(1) involves either a facial attack or a factual attack.” Glob.

42a
Appendix B
Tech., Inc. v. Yubei (XinXiang) Power Steering Sys. Co.,
807 F.3d 806, 810 (6th Cir. 2015). A facial attack “is a
challenge to the sufficiency of the pleading,” and, on such
a motion, “the court must take the material allegations
of the petition as true and construed in the light most
favorable to the nonmoving party.” United States v.
Ritchie, 15 F.3d 592, 598 (6th Cir. 1994). “A factual attack,
on the other hand, is not a challenge to the sufficiency of
the pleading’s allegations, but a challenge to the factual
existence of subject matter jurisdiction.” Id. “On such a
motion, no presumptive truthfulness applies to the factual
allegations, . . . and the court is free to weigh evidence
and satisfy itself as to the existence of its power to hear
the case.” Id. (internal citations omitted).
In this case, because Defendants challenge the
sufficiency of Plaintiffs’ complaint, and because the
Court will not be required to make any factual findings
in deciding whether it has jurisdiction, the Court will
consider Defendants’ motion as a facial attack and take
Plaintiffs’ allegations as true for the purposes of ruling
on the Rule 12(b)(1) motion.
III.

ANALYSIS

Defendants primarily argue that the Court should
dismiss Plaintiffs’ claims because it lacks subject-matter
jurisdiction due to the AIA and the tax exemption to the
DJA. (Doc. 25-1, at 7.) In relevant part, the AIA provides
that “no suit for the purpose of restraining the assessment
or collection of any tax shall be maintained in any court
by any person, whether or not such person is the person
against whom such tax was assessed.” 26 U.S.C. § 7421

43a
Appendix B
(emphasis added). Similarly, the DJA provides that a
Court may “declare the rights and legal relations of any
interested party seeking such declaration,” except “with
respect to Federal taxes . . . .” 28 U.S.C. § 2201(a). “The
federal tax exemption to the Declaratory Judgment
Act is at least as broad as the Anti-Injunction Act.”
Ecclesiastical Order of the ISM of AM, Inc. v. IRS, 725
F.2d 398, 402 (6th Cir. 1984) (quoting Bob Jones Univ. v.
Simon, 416 U.S. 725, 733, n.7, 94 S. Ct. 2038, 40 L. Ed.
2d 496 (1974)). Defendants contend that Plaintiffs’ claims
and their requested injunction violate the AIA and the tax
exemption to the DJA, because any ruling in Plaintiffs’
favor will necessarily operate to restrain tax assessment
and collection. (Doc. 25-1, at 13.)
Although the Notice provides that persons who fail
to comply with it will be subject to “penalty” under 26
U.S.C. §§ 6707(a), 6707A, and 6708(a), the plain language
of governing statutes establishes that such a “penalty”
is a “tax” within the AIA’s prohibition against injunctive
relief. Specifically, 26 U.S.C. § 6671(a) provides:
The penalties and liabilities provided by
[Subchapter 68B] shall be paid upon notice and
demand by the Secretary, and shall be assessed
and collected in the same manner as taxes.
Except as otherwise provided, any reference in
this title to “tax” imposed by this title shall
be deemed also to refer to the penalties and
liabilities provided by [Subchapter 68B].
(emphasis added). Each of the penalty provisions
referenced in the Notice is contained within Subchapter

44a
Appendix B
68B of the Internal Revenue Code and must be considered
a “tax” for the purposes of the AIA and the DJA.
The Supreme Court of the United States has agreed
that penalties assessed under Subchapter 68B are
properly considered taxes for the purpose of determining
whether the AIA divests a court of jurisdiction. In
National Federation of Independent Business v. Sebelius,
the Supreme Court held that the AIA did not apply to
a challenge of a “penalty” for noncompliance with the
Affordable Care Act’s individual mandate, because the
“penalty” was not a “tax.” 567 U.S. 519, 543-46, 132 S.
Ct. 2566, 183 L. Ed. 2d 450 (2012). The Supreme Court
noted, however, that Congress can “describe something
as a penalty but direct that it nonetheless be treated as a
tax for the purposes of the [AIA].” Id. at 544. Describing
such a legislative choice, the Supreme Court specifically
pointed to 26 U.S.C. § 6671(a) and explained that
“[p]enalties in Subchapter 68B are . . . treated as taxes
under Title 26, which includes the [AIA].” Id.
Relying on this reasoning, the United States Court
of Appeals for the D.C. Circuit recently held that the
AIA barred a lawsuit challenging an IRS regulation that
penalized U.S. banks that did not report certain interest
payments. Fla. Bankers Ass’n v. U.S. Dep’t. of Treasury,
799 F.3d 1065, 419 U.S. App. D.C. 31 (D.C. Cir. 2015).
Because the penalty following a failure to report was
prescribed in Subchapter 68B, it was to be considered a
tax for the purposes of the AIA. Id. at 1068. Accordingly,
the D.C. Circuit held the lawsuit effectively sought to
restrain and to eliminate the assessment and collection of a

45a
Appendix B
tax and was barred by the AIA. Id. The D.C. Circuit noted
specifically that its ruling did not prevent a bank from
obtaining judicial review of the challenged regulation, but
explained that the AIA contemplated judicial review only
after a bank failed to report, paid the resultant penalty,
and sued for a refund.4 Id. at 1067.
Further, in Florida Bankers Association, the D.C.
Circuit reaffirmed that plaintiffs cannot sidestep the AIA
by ostensibly challenging only a reporting requirement
and not the penalties imposed for violating that reporting
requirement. Id. at 1072. The D.C. Circuit explained that
a challenge to such a requirement is “necessarily also a
challenge to the tax imposed for failure to comply with that
reporting requirement” because “[i]f plaintiffs’ challenge
were successful, the IRS would be unable to assess or
collect that tax for failure to comply with the reporting
4. Relying on the Supreme Court’s decision in South Carolina
v. Regan, 465 U.S. 367, 104 S. Ct. 1107, 79 L. Ed. 2d 372 (1984),
Plaintiffs also argue that the AIA does not bar a lawsuit when
doing so would deprive a plaintiff of an adequate remedy at law.
Plaintiffs assert that, in the absence of a preliminary injunction,
they will never recover costs of compliance with the Notice or
for harm to their businesses. Regan, however, does not support
Plaintiffs’ argument. As explained by the United States Court of
Appeals for the Sixth Circuit, Regan creates an exception to the
AIA only where “Congress has not provided an alternate avenue for
an aggrieved party to litigate its claims.” RYO Mach., LLC v. U.S.
Dep’t of Treasury, 696 F.3d 467, 472 (6th Cir. 2012). That is not the
case here. As the D.C. Circuit recently held, the ability to initiate a
refund suit after paying an assessed penalty provides an adequate
alternate avenue to challenge IRS action. See Maze v. IRS, 862 F.3d
1087, 1093 (D.C. Cir. 2017).

46a
Appendix B
requirement.”5 Id. at 1071-72; see also RYO Mach., LLC v.
U.S. Dep’t of Treasury, 696 F.3d 467, 471-73 (6th Cir. 2012).
In this case, Plaintiffs’ claims and their requested
injunction necessarily operate as a challenge to both the
reporting requirement and the penalty or tax imposed for
failure to comply with the reporting requirement. Because
the Notice contemplates assessing penalties for noncompliance pursuant to 26 U.S.C. §§ 6707(a), 6707A, and
6708(a), all found within Subchapter 68B of the Internal
Revenue Code, Plaintiffs seek, at least in part, to restrain
the IRS’s assessment or collection of a tax. Accordingly,
the Court lacks subject-matter jurisdiction over Plaintiffs’
claims because they are barred by the AIA and the tax
exception to the DJA.
In their response brief, Plaintiffs request leave to
amend “[i]n the event this Court concludes that the
complaint should be dismissed based upon one or more
curable pleading defects.” (Doc. 26, at 29.) Specifically,
Plaintiffs note that, at the time they initiated the present
action, the deadline for complying with the Notice had not
expired. (Id.) Plaintiffs assert that they can now amend
their complaint to allege they have complied with the
Notice’s requirements such that they will not be subject
5. Plaintiffs’ reliance on Direct Marketing Association v.
Brohl, 135 S. Ct. 1124, 191 L. Ed. 2d 97 (2015), is also misplaced. In
Florida Bankers Association, the D.C. Circuit considered the same
argument Plaintiffs advance here and rejected it. 799 F.3d at 106870. The Court agrees with the analysis set forth in Florida Bankers
Association and, for those same reasons, finds the Supreme Court’s
reasoning in Direct Marketing inapplicable here.

47a
Appendix B
to penalty under the Notice. (Id.) Plaintiffs, however,
ignore that, even if they have complied with the Notice,
they seek: (1) a declaration that the Notice is invalid;
and (2) an injunction prohibiting the IRS from enforcing
the Notice. Such relief, therefore, still seeks to restrain
the IRS’s assessment or collection of taxes, even if not
directly from Plaintiffs. Accordingly, because the Court
finds that Plaintiffs cannot amend their complaint to cure
the Court’s lack of subject-matter jurisdiction, the Court
will DENY Plaintiffs’ request for leave to amend their
complaint (Doc. 26).
IV. CONCLUSION
For the reasons stated herein, Defendants’ motion to
dismiss (Doc. 25) is GRANTED, and, because the Court
lacks subject-matter jurisdiction, Plaintiffs’ claims will
be DISMISSED WITHOUT PREJUDICE. Plaintiffs’
motion for leave to amend their complaint (Doc. 26) is
DENIED.
AN APPROPRIATE ORDER WILL ENTER.
/s/ Travis R. McDonough		
TRAVIS R. MCDONOUGH
UNITED STATES DISTRICT JUDGE

48a
C the united
Appendix c —Appendix
order of
states court of appeals for the sixth
circuit, filed august 28, 2019
United States Court of Appeals
for the Sixth Circuit
No. 18-5019
CIC SERVICES, LLC,
Plaintiff-Appellant,
v.
INTERNAL REVENUE SERVICE; DEPARTMENT
OF TREASURY; UNITED STATES OF AMERICA,
Defendants-Appellees.
October 19, 2018, Argued;
August 28, 2019, Decided;
August 28, 2019, Filed
Appeal from the United States District Court
for the Eastern District of Tennessee at Knoxville.
No. 3:17-cv-00110—Travis R. McDonough,
District Judge
Before SUHRHEINRICH, CLAY, and
NALBANDIAN, Circuit Judges

49a
Appendix C
ORDER
The court received a petition for rehearing en banc.
The original panel reviewed the petition and concludes
that the issues raised in the petition were fully considered
upon the original submission and decision. The petition
was then circulated to the full court. Less than a majority
of the judges voted in favor of rehearing en banc.
Therefore, the petition is denied.

50a
Appendix C
CONCURRENCE IN THE DENIAL
OF REHEARING EN BANC
CLAY, Circuit Judge, concurring in the denial of
rehearing en banc. In their latest attempt to inflict death
by distorted originalism on the modern administrative
state, some of my colleagues would have this Court
directly contravene the Anti-Injunction Act (the “AIA”),
which provides that “no suit for the purpose of restraining
the assessment or collection of any tax shall be maintained
in any court by any person.” 26 U.S.C. § 7421(a).
Specifically, my colleagues would allow plaintiffs seeking
to preemptively challenge regulatory taxes to evade the
AIA simply by purporting to challenge only the regulatory
aspect of the regulatory tax. Yet “[t]he Supreme Court has
consistently ruled” that the AIA “cannot be sidestepped
by such nifty wordplay.” Fla. Bankers Ass’n v. U.S. Dep’t
of the Treasury, 799 F.3d 1065, 1070, 419 U.S. App. D.C.
31 (D.C. Cir. 2015); see, e.g., Nat’l Fed’n of Indep. Bus. v.
Sebelius, 567 U.S. 519, 543, 132 S. Ct. 2566, 183 L. Ed. 2d
450 (2012); Alexander v. “Americans United” Inc., 416
U.S. 752, 761, 94 S. Ct. 2053, 40 L. Ed. 2d 518 (1974); Bob
Jones Univ. v. Simon, 416 U.S. 725, 732, 94 S. Ct. 2038,
40 L. Ed. 2d 496 (1974); Bailey v. George, 259 U.S. 16,
19-20, 42 S. Ct. 419, 66 L. Ed. 816, 1922-2 C.B. 342, T.D.
3347 (1922). To hold otherwise “would reduce the [AIA]
to dust in the context of challenges to regulatory taxes.”
Fla. Bankers, 799 F.3d at 1070.
Of course, that is precisely the result that my
colleagues crave. They chide the IRS for its “regulat[ion]
[of] an ever-expanding sphere of everyday life” and decry

51a
Appendix C
that it is exercising its powers “in ways the Founders
never would have envisioned.” But such complaints were
not persuasive when the original panel considered this
case, were not persuasive when the full court considered
the petition for rehearing en banc, and are not persuasive
now. “[I]t is no answer to the growth of agencies” for
federal courts to renounce the rules by which they have
long abided, particularly where those rules have been
clearly articulated by both Congress and the Supreme
Court. Kisor v. Wilkie, 139 S. Ct. 2400, 2423, 204 L. Ed.
2d 841 (2019).
A suit seeking to preemptively challenge the regulatory
aspect of a regulatory tax “necessarily” also seeks to
preemptively challenge the tax aspect of a regulatory tax
because invalidating the former would necessarily also
invalidate the latter. Bob Jones Univ., 416 U.S. at 731;
see also NFIB, 567 U.S. at 543 (“The present challenge to
the mandate thus seeks to restrain the penalty’s future
collection.” (emphasis added)). Otherwise, a taxpayer could
simply “characterize” a challenge to a regulatory tax as
a challenge to only the regulatory aspect of the tax and
thereby evade the AIA. Fla. Bankers, 799 F.3d at 1071.
And “as the Supreme Court has explained time and again
. . . the [AIA] is more than a pleading exercise.” Id.; see
also RYO Machine, LLC v. U.S. Dep’t of Treasury, 696
F.3d 467, 471 (6th Cir. 2012) (“Regardless of how the claim
is labeled, the effect of an injunction here is to interfere
with the assessment or collection of a tax. The plaintiff is
not free to define the relief it seeks in terms permitted by
the [AIA] while ignoring the ultimate deleterious effect
such relief would have on the Government’s taxing ability.”
(quotation omitted)).

52a
Appendix C
Against this wealth of precedent, my colleagues raise
no new arguments sounding in either statutory text or
caselaw. As the majority opinion in this case makes clear,
Direct Mktg. Ass’n v. Brohl, 135 S. Ct. 1124, 191 L. Ed. 2d
97 (2015), Autocam Corp. v. Sebelius, 730 F.3d 618, 622 (6th
Cir. 2013), vacated on other grounds by Autocam Corp. v.
Burwell, 573 U.S. 956, 134 S. Ct. 2901, 189 L. Ed. 2d 852
(2014), Korte v. Sebelius, 735 F.3d 654, 669-70 (7th Cir.
2013), and Hobby Lobby Stores, Inc. v. Sebelius, 723 F.3d
1114, 1126-27 (10th Cir. 2013), are all largely inapposite.
None of those cases involved a regulation enforced by a
tax-penalty located in Subchapter 68B of the Internal
Revenue Code. Where, as here, the regulation at issue
is enforced by a tax-penalty located in Subchapter 68B
of the Internal Revenue Code, that tax-penalty becomes
the relevant tax for the AIA analysis, as opposed to any
third-party taxes the collection of which the regulation
is designed to facilitate. NFIB, 567 U.S. at 544; Fla.
Bankers, 799 F.3d at 1068. And Plaintiff’s suit plainly
seeks to “restrain[] (indeed eliminat[e]) the assessment
and collection of that tax.” Fla. Bankers, 799 F.3d at 1068;
see also NFIB, 567 U.S. at 544. In contrast, Autocam,
Korte, and Hobby Lobby all involved the Affordable
Care Act’s contraceptive mandate, which was a separate
provision of the U.S. Code structured not as a predicate
to the imposition of a tax, but as a mandate enforceable
by a variety of different mechanisms.
Rather, in an instance of textbook judicial activism,
my colleagues instead attempt to raise a plethora of policy
concerns. Indeed, reading the dissent, one might be left
with the mistaken impression that “policy concerns,

53a
Appendix C
rather than traditional tools of statutory construction, are
shaping the judicial interpretation of statutes.” Zuni Pub.
Sch. Dist. No. 89 v. Dep’t of Educ., 550 U.S 81, 109, 127 S.
Ct. 1534, 167 L. Ed. 2d 449 (2007) (Scalia, J., dissenting).
Not so. As my colleagues well know, having admonished
the IRS on the same grounds, “courts are[] [not] free to
rewrite clear statutes under the banner of our own policy
concerns.” Azar v. Allina Health Servs., 139 S. Ct. 1804,
1815, 204 L. Ed. 2d 139 (2019). Regardless, none of the
policy concerns that the dissent raises are persuasive.
For instance, my colleagues evoke the prospect of
righteous individuals forced to “bet the farm” or “risk
prison time” in order to challenge regulatory taxes
imposed by a purportedly illegitimate administrative
state. Yet the Supreme Court has made clear that the
AIA creates an exception to the general administrative
law principle in favor of pre-enforcement judicial review,
and that it applies even in the gravest of circumstances,
such as the violation of individuals’ constitutional rights.
See, e.g., United States v. Clintwood Elkhorn Min. Co.,
553 U.S. 1, 10, 128 S. Ct. 1511, 170 L. Ed. 2d 392 (2008)
(“[T]he taxpayer must succumb [even] to an unconstitutional
tax, and seek recourse only after it has been unlawfully
exacted.”). If and when Congress has a change of heart,
it remains free to amend the AIA as it sees fit.
My colleagues also opine about a supposed “elephant
in the room”—the fact that “the IRS (an executive agency)
exercises the power to tax and destroy, in ways the
Founders never would have envisioned.” Yet the Founders’
expectations about how Congress would wield the power

54a
Appendix C
bestowed on it by the Constitution are entirely irrelevant
to the case before this Court. This is a case about statutory
interpretation, not about the constitutionality of the socalled administrative state, or even the constitutionality
of the AIA. My colleagues thus misstep in letting their
hostility toward the IRS, rather than traditional tools of
statutory construction, guide their analysis. Apparently,
it is no cause for doubt or self-reflection by my dissenting
colleagues that no one else, including the parties litigating
this case, can see the elephant.
At bottom, my colleagues raise no arguments that
justify this Court’s departure from settled Supreme Court
precedent regarding the AIA. Accordingly, I respectfully
concur in the denial of rehearing en banc.

55a
Appendix C
CONCURRENCE IN THE DENIAL
OF REHEARING EN BANC
SUTTON, Circuit Judge, concurring in the denial
of rehearing en banc. Three cross-currents affect the
resolution of this en banc petition.
One is that the dissenting opinion by Judge Nalbandian
seems to be right as an original matter. I doubt that the
words of the Anti-Injunction Act—that “no suit for the
purpose of restraining the assessment or collection of any
tax shall be maintained in any court by any person”—
ban all prospective relief whenever the IRS enforces a
regulation with a penalty that it chooses to call a “tax.”
26 U.S.C. § 7421. And I especially doubt that conclusion
in this setting—where the taxpayer’s only remedy is not
to “pay first challenge later” but to “report to prison
first challenge later.” As today’s case appears to confirm,
the meaning of the Anti-Injunction Act has crossed the
bar from its port of birth. See Lipke v. Lederer, 259 U.S.
557, 562, 42 S. Ct. 549, 66 L. Ed. 1061, T.D. 3354 (1922)
(holding that the Anti-Injunction Act does not apply to a
suit to enjoin enforcement of a penalty Congress called a
“tax”). One explanation for this drift may be the historic
linkage between the meaning of the Anti-Injunction Act
and the Tax Injunction Act, 28 U.S.C. § 1341. See Direct
Mktg. Ass’n v. Brohl, 135 S. Ct. 1124, 1129, 191 L. Ed. 2d
97 (2015). Keep in mind that, while the Anti-Injunction Act
ensures that the IRS can perform its revenue-collecting
tasks without undue interference by federal taxpayers,
the Tax Injunction Act protects a different sovereign’s
interests—“to limit drastically federal district court

56a
Appendix C
jurisdiction to interfere with so important a local concern
as the collection of taxes” by the States. Rosewell v.
Lasalle Nat’l Bank, 450 U.S. 503, 522, 101 S. Ct. 1221,
67 L. Ed. 2d 464 (1981). To respect the federal taxpayer’s
procedural concerns today thus might slight the State’s
sovereign concerns tomorrow, creating the risk that too
much haste in stopping one abuse of power might open
the door to another.
A second reality is that this case does not come to us
on a fresh slate. Whatever we might do with the issue as
an original matter is not the key question. As second-tier
judges in a three-tier court system, our task is to figure
out what the Supreme Court’s precedents mean in this
setting. That is not easy because none of the Court’s
precedents is precisely on point and because language
from these one-off decisions leans in different directions.
A little caution thus is in order when it comes to judging
the efforts of our colleagues on this court and on the D.C.
Circuit to sort this out. See Fla. Bankers Ass’n v. U.S.
Dep’t of the Treasury, 799 F.3d 1065, 1068-70, 419 U.S.
App. D.C. 31 (D.C. Cir. 2015) (Kavanaugh, J.). Neither of
the two court of appeals decisions—neither ours nor the
D.C. Circuit’s—purports to answer this question as an
original matter. And reading between the lines of Supreme
Court decisions is a tricky business—hard enough with a
panel of three lower-court judges, utterly daunting with
a slate of sixteen lower-court judges.
The last consideration is that we are not alone. The
key complexity in this case—how to interpret Supreme
Court decisions interpreting the statute—poses fewer

57a
Appendix C
difficulties for the Supreme Court than it does for us. In
a dispute in which the Court’s decisions plausibly point in
opposite directions, it’s worth asking what value we would
add to the mix by en-bancing the case in order to create the
very thing that generally prompts more review: a circuit
split. As is, we have Judge Thapar’s dissental and Judge
Nalbandian’s dissent at the panel stage on one side and
Judge Clay’s opinion for the court on the other. These three
opinions together with then-Judge Kavanaugh’s opinion
say all there is to say about the issue from a lower court
judge’s perspective. All of this leaves the Supreme Court
in a well-informed position to resolve the point by action
or inaction—either by granting review and reversing or
by leaving the circuit court decisions in place.

58a
Appendix C
DISSENT FROM THE DENIAL
OF REHEARING EN BANC
THAPAR, Circuit Judge, dissenting from the denial of
rehearing en banc. In this country, people should not have
to risk prison time in order to challenge the lawfulness of
government action. In this circuit, they now do. Because
the law does not condone—let alone require—that result, I
respectfully dissent from the denial of rehearing en banc.
Although the details at first may seem technical, this
is a straightforward case. In 2016, the IRS issued socalled guidance requiring taxpayers and their advisers
to report certain information to the agency. Failure to
do so can result in significant civil penalties. 26 U.S.C.
§§ 6707-6708. And a willful violation can result in criminal
penalties, including imprisonment. Id. § 7203. Less than
a year later, CIC Services sued the IRS, alleging that the
agency had issued its guidance unlawfully. The question
here is whether the Anti-Injunction Act, which provides
that “no suit for the purpose of restraining the assessment
or collection of any tax shall be maintained in any court
by any person,” applies to that suit. Id. § 7421(a).
The Supreme Court, this circuit, and other circuits
have all told us that the answer to that question is no.
Take the Supreme Court. Recently, it interpreted the
Tax Injunction Act, which generally uses words “in the
same way” as the Anti-Injunction Act. Direct Mktg. Ass’n
v. Brohl, 135 S. Ct. 1124, 1129, 191 L. Ed. 2d 97 (2015).
That case had two holdings. First, the Court held that the
terms “assessment” and “collection”—used in both Acts—

59a
Appendix C
do not refer to reporting requirements. Rather, such
“information gathering” is distinct from and occurs before
these other stages of the taxation process. Id. at 1129-31.
Second, the Court held that the term “restrain”—also
used in both Acts—means to “prohibit” or “stop.” Id. at
1132 (internal quotation marks omitted). It did so because
the term “‘restrain’ acts on a carefully selected list of
technical terms” (e.g., “assessment” and “collection”), not
“an all-encompassing term, like ‘taxation.’” Id. To adopt a
broader definition, the Court explained, would “defeat the
precision of that list, as virtually any court action related
to any phase of taxation” could “inhibit” tax collection. Id.
And the narrower definition appropriately reflected the
term’s “meaning in equity.” Id. From these twin holdings,
the Court easily concluded that a suit to enjoin a state
law that required retailers to report certain information
to the state revenue service could not “be understood to
‘restrain’ the ‘assessment’ . . . or collection’” of a tax. Id.
at 1133.
That conclusion nearly resolves this case. CIC filed
its lawsuit to enjoin IRS “guidance” that required the
company to report certain information to the agency. The
company claimed that it would have to devote hundreds of
hours of labor and tens of thousands of dollars to comply
with that requirement. And for no good reason, the
company said, because the IRS had issued its guidance
in violation of the Administrative Procedure Act and the
Congressional Review Act. See 5 U.S.C. §§ 553, 706, 801.
Per the Supreme Court’s direction, that suit cannot be
understood to “restrain[] the assessment or collection”
of a tax just because it might inhibit the agency’s future

60a
Appendix C
collection efforts. 26 U.S.C. § 7421(a); Direct Mktg., 135
S. Ct. at 1133.
This case, however, does pose one additional wrinkle.
Congress has prescribed civil penalties for failing to
comply with certain IRS regulations and has apparently
decided that these penalties should count as “taxes”
for purposes of the Anti-Injunction Act. See 26 U.S.C.
§ 6671(a); Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S.
519, 544-45, 132 S. Ct. 2566, 183 L. Ed. 2d 450 (2012). But
that fact changes little. The Anti-Injunction Act applies
to suits “for the purpose of restraining the assessment or
collection” of a tax. 26 U.S.C. § 7421(a). And here the suit
seeks to enjoin the underlying reporting requirement,
not the penalties. Nor has the IRS otherwise shown that
CIC has the “purpose” of restraining these penalties.
The company complains about the costs of complying with
the reporting requirement, not the potential penalties
for failing to do so. Indeed, CIC currently has no “tax”
liability under this regulatory regime and may never incur
any such liability. Simply put, this is not a case about taxes.
CIC Servs., LLC v. IRS, 925 F.3d 247, 259 (6th Cir. 2019)
(Nalbandian, J., dissenting).
Our circuit has reached the same conclusion in a
nearly identical case. Specifically, we held that the AntiInjunction Act did not apply to a lawsuit challenging the
Affordable Care Act’s contraceptive mandate, even though
employers would have to pay a “tax” if they violated the
mandate. See Autocam Corp. v. Sebelius, 730 F.3d 618,
621-22 (6th Cir. 2013), vacated on other grounds sub nom.
Autocam Corp. v. Burwell, 573 U.S. 956, 134 S. Ct. 2901,

61a
Appendix C
189 L. Ed. 2d 852 (2014). Our decision reasoned that the
suit was “not intended to ‘restrain[]’ the IRS’s efforts
to ‘assess[] or collect[]’ taxes”; rather, it sought only to
enjoin the underlying mandate. Id. at 622 (alterations
in original). Although the Supreme Court later vacated
that decision, it did so on other grounds. So the decision
continues to be entitled to (at the very least) persuasive
weight. And there was no good reason to disturb it here.
Cf. United States v. Adewani, 467 F.3d 1340, 1342 (D.C.
Cir. 2006); Christianson v. Colt Indus. Operating Corp.,
870 F.2d 1292, 1298 (7th Cir. 1989).
Our circuit was not alone in its conclusion. Two other
circuits have reached the same result using the same
reasoning. See Korte v. Sebelius, 735 F.3d 654, 669-70
(7th Cir. 2013); Hobby Lobby Stores, Inc. v. Sebelius, 723
F.3d 1114, 1126-27 (10th Cir. 2013) (en banc). And another
applied the same reasoning to a similar case. See SevenSky v. Holder, 661 F.3d 1, 8-10, 398 U.S. App. D.C. 134
(D.C. Cir. 2011), abrogated on other grounds by NFIB,
567 U.S. 519, 132 S. Ct. 2566, 183 L. Ed. 2d 450.
Finally, these decisions just make sense. After all,
the Supreme Court has long presumed that parties may
challenge agency action before they suffer any harm.
See, e.g., U.S. Army Corps of Eng’rs v. Hawkes Co., 136
S. Ct. 1807, 1815-16, 195 L. Ed. 2d 77 (2016); Abbott Labs.
v. Gardner, 387 U.S. 136, 139-41, 152-53, 87 S. Ct. 1507,
18 L. Ed. 2d 681 (1967); United States v. Nourse, 34 U.S.
8, 28-29, 9 L. Ed. 31 (1835) (Marshall, C.J.). True, the
Anti-Injunction Act creates a narrow exception to that
rule. Yet the IRS’s interpretation would not just broaden

62a
Appendix C
that exception but blast it wide open. In recent years, the
agency has begun to regulate an ever-expanding sphere
of everyday life—from childcare and charity to healthcare
and the environment. That might be okay if the IRS
followed basic rules of administrative law. But it doesn’t.
See Kristin E. Hickman & Gerald Kerska, Restoring the
Lost Anti-Injunction Act, 103 Va. L. Rev. 1683, 1685, 171220 (2017). So with great power comes little accountability.
Even so, one might think, the IRS’s interpretation
would still allow people to bring a challenge after they
violate the reporting requirement and pay the penalty.
True enough. But only if people are also willing to spend
up to a year in prison. See 26 U.S.C. § 7203. In effect,
these criminal sanctions make the reporting requirement
in this case (and many others) unreviewable. The IRS
responds that “[it] is not clear” whether the government
would criminally prosecute someone “who demonstrates
a good-faith intent to submit its challenge for judicial
resolution.” IRS En Banc Br. at 8. But that has never
been a “sufficient answer.” Abbott Labs., 387 U.S. at 154
(rejecting the argument that “the threat of criminal
sanctions” was “unrealistic”). Courts normally do not
require people “to bet the farm” in order to bring an
administrative challenge. Free Enter. Fund v. Pub. Co.
Accounting Oversight Bd., 561 U.S. 477, 490, 130 S. Ct.
3138, 177 L. Ed. 2d 706 (2010) (internal quotation marks
omitted). Yet the IRS seems to think people should bet
their liberty.
Going forward in this circuit, the IRS will have
the power to impose sweeping “guidance” across areas

63a
Appendix C
of public and private life, backed by civil and criminal
sanctions, and left unchecked by administrative or judicial
process. Surely nobody in 1867 would have understood the
Anti-Injunction Act to require such a result. See Pullan v.
Kinsinger, 20 F. Cas. 44, 48, F. Cas. No. 11463 (C.C.S.D.
Ohio 1870) (describing the Act as “wholly unnecessary,
enacted only as a politic and kindly publication of an old
and familiar [common law] rule”); Erin Morrow Hawley,
The Equitable Anti-Injunction Act, 90 Notre Dame L.
Rev. 81, 96-97 (2014). Nor should we have allowed it.
By this point, one might recognize the “elephant in the
room.” Gutierrez-Brizuela v. Lynch, 834 F.3d 1142, 1149
(10th Cir. 2016) (Gorsuch, J., concurring). The Founders
gave Congress the “Power To lay and collect Taxes.” U.S.
Const. art. I, § 8, cl. 1. They limited this power to Congress
because they understood full well that “the power to tax
involves the power to destroy.” M’Culloch v. Maryland,
17 U.S. 316, 431, 4 L. Ed. 579 (1819) (Marshall, C.J.). But
today, the IRS (an executive agency) exercises the power
to tax and to destroy, in ways that the Founders never
would have envisioned. E.g., In re United States (NorCal
Tea Party Patriots), 817 F.3d 953 (6th Cir. 2016). Courts
accepted this departure from constitutional principle on
the promise that Congress would still constrain agency
power through statutes like the Administrative Procedure
Act. 5 U.S.C. § 500 et seq. We now see what many feared:
that promise is often illusory.
The IRS offers some arguments in response. It first
contends that several Supreme Court decisions support
its interpretation. Specifically, the agency points to

64a
Appendix C
Alexander v. “Americans United” Inc., 416 U.S. 752,
94 S. Ct. 2053, 40 L. Ed. 2d 518 (1974) and Bob Jones
Univ. v. Simon, 416 U.S. 725, 94 S. Ct. 2038, 40 L. Ed. 2d
496 (1974). In those cases, the Court held that the AntiInjunction Act barred challenges to the IRS’s decision
to revoke the tax-exempt status of two nonprofits. The
nonprofits each argued that their lawsuits sought only to
maintain their flow of charitable donations, not to restrain
a tax. But the Court recognized that the “primary” or
“obvious purpose” of both lawsuits was to restrain the
collection of taxes. “Americans United,” 416 U.S. at 76061; Bob Jones, 416 U.S. at 738.1 Indeed, the plaintiffs in
those cases were “defeated by [their] own pleadings, since
the only injuries [they] identified involved tax liability.”
Seven-Sky, 661 F.3d at 10 (citing “Americans United,”
416 U.S. at 761; Bob Jones, 416 U.S. at 738-39). Yet here
CIC has a clear interest—separate from any potential
“tax” liability—in avoiding the substantial costs of the
reporting requirement. The “purpose” of its lawsuit is to
obtain relief from costs the company must pay today, not
to restrain a penalty it might have to pay tomorrow. The
1. To be sure, the Supreme Court suggested at one point
that the Anti-Injunction Act would bar any lawsuit that would
“necessarily preclude” the collection of taxes. Bob Jones, 416 U.S.
at 732. But that stray phrase has never since been invoked by the
Court, even in a decision released on the same day by the same
Justice about the same issue. See “Americans United,” 416 U.S.
752, 94 S. Ct. 2053, 40 L. Ed. 2d 518. If the test truly were whether
a lawsuit would “necessarily preclude” the collection of taxes, then
“Americans United” would have been a much easier case. Instead,
the Court spent ten pages analyzing the facts of the case and the
purpose of the lawsuit. See id. The “necessarily preclude” test would
also have the inconvenient feature of rewriting the Anti-Injunction
Act to say “effect” rather than “purpose.”

65a
Appendix C
agency also cites NFIB, 567 U.S. 519, 132 S. Ct. 2566, 183
L. Ed. 2d 450. But that decision never reached the question
whether the lawsuit had the “purpose of restraining” a
tax because the penalty in that case was not a “tax.” See
id. at 546. 2
Lastly, the IRS invokes a policy concern, asserting
that any other interpretation would allow parties to
circumvent the Anti-Injunction Act through “ingenious”
pleading. IRS Br. at 43. But the agency has offered little
basis for that concern. And the Supreme Court’s decisions
in “Americans United” and Bob Jones suggest that courts
can determine a lawsuit’s purpose without barring every
pre-enforcement challenge involving the IRS (or requiring
would-be plaintiffs to file their lawsuits from prison). More
to the point, the Court has repeatedly told us that we may
not rewrite a statute based on policy concerns. See, e.g.,
2. Of course, thoughtful jurists have read these cases as well
as the Anti-Injunction Act differently. See CIC Servs., 925 F.3d 247;
Fla. Bankers Ass’n v. U.S. Dep’t of the Treasury, 799 F.3d 1065,
419 U.S. App. D.C. 31 (D.C. Cir. 2015). But the Supreme Court long
ago rejected the suggestion that circuit courts should automatically
follow each other’s decisions. Instead, “the primary duty of every
court is to dispose of cases according to the law and the facts; in a
word, to decide them right.” Mast, Foos & Co. v. Stover Mfg. Co., 177
U.S. 485, 488, 20 S. Ct. 708, 44 L. Ed. 856, 1900 Dec. Comm’r Pat.
285 (1900). And in rehearing this case, we could have considered
other related questions that may bear on its outcome. See Hobby
Lobby, 723 F.3d at 1157-59 (Gorsuch, J., concurring) (reasoning
that the Anti-Injunction Act is not jurisdictional); Hawley, supra,
at 90-110, 125-32 (arguing the same and noting that, if the Act is
not jurisdictional, it may permit courts to grant equitable relief in
a broader array of cases than currently recognized).

66a
Appendix C
Azar v. Allina Health Servs., 139 S. Ct. 1804, 1815, 204 L.
Ed. 2d 139 (2019). In sum, the Anti-Injunction Act should
not apply to this suit.
***
The IRS has long “envision[ed] a world in which no
challenge to its actions is ever outside the closed loop of
its taxing authority.” Cohen v. United States, 650 F.3d 717,
726, 397 U.S. App. D.C. 33 (D.C. Cir. 2011) (en banc). With
today’s decision, I fear we have made some large strides
towards such a world. For these reasons, I respectfully
dissent from the denial of rehearing en banc.
entered by ORDER OF the
court
/s/
Deborah s. Hunt, Clerk

67a
Appendix
D
APPENDIX
D — RELEVANT
STATUTORY AND REGULATORY PROVISIONS
26 U.S.C. § 6707
(a) In general. If a person who is required to file a return
under section 6111(a) [26 U.S.C. § 6111(a)] with respect to
any reportable transaction—
(1) fails to file such return on or before the date
prescribed therefor, or
(2) files false or incomplete information with the
Secretary with respect to such transaction,
such person shall pay a penalty with respect to such return
in the amount determined under subsection (b).
(b) Amount of penalty.
(1) In general. Except as provided in paragraph (2),
the penalty imposed under subsection (a) with respect
to any failure shall be $50,000.
(2) Listed transactions. The penalty imposed under
subsection (a) with respect to any listed transaction
shall be an amount equal to the greater of—
(A) $200,000, or
(B) 50 percent of the gross income derived by
such person with respect to aid, assistance, or
advice which is provided with respect to the listed
transaction before the date the return is filed under
section 6111 [26 U.S.C. § 6111].

68a
Appendix D
Subparagraph (B) shall be applied by substituting
“75 percent” for “50 percent” in the case of an
intentional failure or act described in subsection (a).
(c) Rescission authority. The provisions of section
6707A(d) [26 U.S.C. § 6707A(d)] (relating to authority
of Commissioner to rescind penalty) shall apply to any
penalty imposed under this section.
(d) Reportable and listed transactions. For purposes
of this section, the terms “reportable transaction” and
“listed transaction” have the respective meanings given
to such terms by section 6707A(c) [26 U.S.C. § 6707A(c)].

69a
Appendix D
26 U.S.C. § 6707A
(a) Imposition of penalty. Any person who fails to include
on any return or statement any information with respect
to a reportable transaction which is required under section
6011 [26 U.S.C. § 6011] to be included with such return or
statement shall pay a penalty in the amount determined
under subsection (b).
(b) Amount of penalty.
(1) In general. Except as otherwise provided in this
subsection, the amount of the penalty under subsection
(a) with respect to any reportable transaction shall be
75 percent of the decrease in tax shown on the return
as a result of such transaction (or which would have
resulted from such transaction if such transaction were
respected for Federal tax purposes).
(2) Maximum penalty. The amount of the penalty
under subsection (a) with respect to any reportable
transaction shall not exceed—
(A) in the case of a listed transaction, $200,000
($100,000 in the case of a natural person), or
(B) in the case of any other reportable transaction,
$50,000 ($10,000 in the case of a natural person).
(3) Minimum penalty. The amount of the penalty
under subsection (a) with respect to any transaction
shall not be less than $10,000 ($5,000 in the case of a
natural person).

70a
Appendix D
(c) Definitions. For purposes of this section:
(1) Reportable transaction. The term “reportable
transaction” means any transaction with respect to
which information is required to be included with a
return or statement because, as determined under
regulations prescribed under section 6011 [26 U.S.C.
§ 6011], such transaction is of a type which the
Secretary determines as having a potential for tax
avoidance or evasion.
(2) Listed transaction. The term “listed transaction”
means a reportable transaction which is the same as,
or substantially similar to, a transaction specifically
identified by the Secretary as a tax avoidance
transaction for purposes of section 6011 [26 U.S.C.
§ 6011].
(d) Authority to rescind penalty.
(1) In general. The Commissioner of Internal Revenue
may rescind all or any portion of any penalty imposed
by this section with respect to any violation if—
(A) the violation is with respect to a reportable
transaction other than a listed transaction, and
(B) rescinding the penalty would promote
compliance with the requirements of this title and
effective tax administration.
(2) No judicial appeal. Notwithstanding any other
provision of law, any determination under this

71a
Appendix D
subsection may not be reviewed in any judicial
proceeding.
(3) Records. If a penalty is rescinded under paragraph
(1), the Commissioner shall place in the file in the Office
of the Commissioner the opinion of the Commissioner
with respect to the determination, including—
(A) a statement of the facts and circumstances
relating to the violation,
(B) the reasons for the rescission, and
(C) the amount of the penalty rescinded.
(e) Penalty reported to SEC. In the case of a person—
(1) which is required to file periodic reports under
section 13 or 15(d) of the Securities Exchange Act of
1934 [15 U.S.C. § 78m or 78o(d)] or is required to be
consolidated with another person for purposes of such
reports, and
(2) which—
(A) is required to pay a penalty under this section
with respect to a listed transaction,
(B) is required to pay a penalty under section
6662A [26 U.S.C. § 6662A] with respect to any
reportable transaction at a rate prescribed under
section 6662A(c) [26 U.S.C. § 6662A(c)], or

72a
Appendix D
(C) is required to pay a penalty under section
6662(h) [26 U.S.C. § 6662(h)] with respect to any
reportable transaction and would (but for section
6662A(e)(2)(B) [26 U.S.C. § 6662A(e)(2)(B)]) have
been subject to penalty under section 6662A [26
U.S.C. § 6662A] at a rate prescribed under section
6662A(c) [26 U.S.C. § 6662A(c)],
the requirement to pay such penalty shall be disclosed in
such reports filed by such person for such periods as the
Secretary shall specify. Failure to make a disclosure in
accordance with the preceding sentence shall be treated
as a failure to which the penalty under subsection (b)(2)
applies.
(f) Coordination with other penalties. The penalty
imposed by this section shall be in addition to any other
penalty imposed by this title.

73a
Appendix D
26 U.S.C. § 6708
(a) Imposition of penalty.
(1) In general. If any person who is required to
maintain a list under section 6112(a) [26 U.S.C.
§ 6112(a)] fails to make such list available upon written
request to the Secretary in accordance with section
6112(b) [26 U.S.C. § 6112(b)] within 20 business days
after the date of such request, such person shall pay
a penalty of $10,000 for each day of such failure after
such 20th day.
(2) Reasonable cause exception. No penalty shall be
imposed by paragraph (1) with respect to the failure
on any day if such failure is due to reasonable cause.
(b) Penalty in addition to other penalties. The penalty
imposed by this section shall be in addition to any other
penalty provided by law.

74a
Appendix D
26 U.S.C. § 6011(a)
(a) General rule. W hen required by reg ulations
prescribed by the Secretary any person made liable
for any tax imposed by this title, or with respect to the
collection thereof, shall make a return or statement
according to the forms and regulations prescribed by the
Secretary. Every person required to make a return or
statement shall include therein the information required
by such forms or regulations.

75a
Appendix D
26 U.S.C. § 6111
(a) In general. Each material advisor with respect to any
reportable transaction shall make a return (in such form
as the Secretary may prescribe) setting forth—
(1) information identifying and describing the
transaction,
(2) information describing any potential tax benefits
expected to result from the transaction, and
(3) such other information as the Secretary may
prescribe.
Such return shall be filed not later than the date specified
by the Secretary.
(b) Definitions. For purposes of this section:
(1) Material advisor.
(A) In general. The term “material advisor” means
any person—
(i) who provides any material aid, assistance,
or advice with respect to organizing, managing,
promoting, selling, implementing, insuring, or
carrying out any reportable transaction, and
(ii) who directly or indirectly derives gross
income in excess of the threshold amount (or

76a
Appendix D
such other amount as may be prescribed by the
Secretary) for such aid, assistance, or advice.
(B) Th reshold a mount . For pu r poses of
subparagraph (A), the threshold amount is—
(i) $50,000 in the case of a reportable transaction
substantially all of the tax benefits from which
are provided to natural persons, and
(ii) $250,000 in any other case.
(2) Reportable transaction. The term “reportable
transaction” has the meaning given to such term by
section 6707A(c) [26 U.S.C. § 6707A(c)].
(c) Regulations. The Secretary may prescribe regulations
which provide—
(1) that only 1 person shall be required to meet the
requirements of subsection (a) in cases in which 2 or
more persons would otherwise be required to meet
such requirements,
(2) exemptions from the requirements of this section,
and
(3) such rules as may be necessary or appropriate to
carry out the purposes of this section.

77a
Appendix D
26 U.S.C. § 6112
(a) In general. Each material advisor (as defined in section
6111 [26 U.S.C. § 6111]) with respect to any reportable
transaction (as defined in section 6707A(c) [26 U.S.C.
§ 6707A(c)]) shall (whether or not required to file a return
under section 6111 [26 U.S.C. § 6111] with respect to such
transaction) maintain (in such manner as the Secretary
may by regulations prescribe) a list—
(1) identifying each person with respect to whom such
advisor acted as a material advisor with respect to
such transaction, and
(2) containing such other information as the Secretary
may by regulations require.
(b) Special rules.—
(1) Availability for inspection; retention of
information on list. Any person who is required to
maintain a list under subsection (a) (or was required to
maintain a list under subsection (a) as in effect before
the enactment of the American Jobs Creation Act of
2004 [enacted Oct. 22, 2004])—
(A) shall make such list available to the Secretary
for inspection upon w ritten request by the
Secretary, and
(B) except as otherwise provided under regulations
prescribed by the Secretary, shall retain any

78a
Appendix D
information which is required to be included on
such list for 7 years.
(2) Lists which would be required to be maintained
by 2 or more persons. The Secretary may prescribe
regulations which provide that, in cases in which 2
or more persons are required under subsection (a)
to maintain the same list (or portion thereof), only
1 person shall be required to maintain such list (or
portion).

79a
Appendix D
26 U.S.C. § 7203
Any person required under this title to pay any estimated
tax or tax, or required by this title or by regulations
made under authority thereof to make a return, keep
any records, or supply any information, who willfully
fails to pay such estimated tax or tax, make such return,
keep such records, or supply such information, at the
time or times required by law or regulations, shall, in
addition to other penalties provided by law, be guilty
of a misdemeanor and, upon conviction thereof, shall be
fined not more than $25,000 ($100,000 in the case of a
corporation), or imprisoned not more than 1 year, or both,
together with the costs of prosecution. In the case of any
person with respect to whom there is a failure to pay any
estimated tax, this section shall not apply to such person
with respect to such failure if there is no addition to tax
under section 6654 or 6655 [26 U.S.C. § 6654 or 6655] with
respect to such failure. In the case of a willful violation of
any provision of section 6050I [26 U.S.C. § 6050I], the first
sentence of this section shall be applied by substituting
“felony” for “misdemeanor” and “5 years” for “1 year”.

80a
Appendix D
26 U.S.C. § 7421(a)
(a) Tax. Except as provided in sections 6015(e), 6212(a) and
(c), 6213(a), 6232(c), 6330(e)(1), 6331(i), 6672(c), 6694(c), and
7426(a) and (b)(1), 7429(b), and 7436 [26 U.S.C. §§ 6015(e),
6212(a) and (c), 6213(a), 6232(c), 6330(e)(1), 6331(i), 6672(c),
6694(c), and 7426(a) and (b)(1), 7429(b), and 7436], no suit
for the purpose of restraining the assessment or collection
of any tax shall be maintained in any court by any person,
whether or not such person is the person against whom
such tax was assessed.

81a
Appendix D
26 C.F.R. 1.6011-4(b)
(b) Reportable transactions—
(1) In general. A reportable transaction is a transaction
described in any of the paragraphs (b)(2) through
(7) of this section. The term transaction includes
all of the factual elements relevant to the expected
tax treatment of any investment, entity, plan, or
arrangement, and includes any series of steps carried
out as part of a plan.
(2) Listed transactions. A listed transaction is
a transaction that is the same as or substantially
similar to one of the types of transactions that the
Internal Revenue Service (IRS) has determined to be
a tax avoidance transaction and identified by notice,
regulation, or other form of published guidance as a
listed transaction.
(3) Confidential transactions—
(i) In general. A confidential transaction is a
transaction that is offered to a taxpayer under
conditions of confidentiality and for which the
taxpayer has paid an advisor a minimum fee.
(ii) Conditions of confidentiality. A transaction
is considered to be offered to a taxpayer under
conditions of confidentiality if the advisor who
is paid the minimum fee places a limitation
on disclosure by the taxpayer of the tax

82a
Appendix D
treatment or tax structure of the transaction
and the limitation on disclosure protects the
confidentiality of that advisor’s tax strategies.
A transaction is treated as confidential even
if the conditions of confidentiality are not
legally binding on the taxpayer. A claim that
a transaction is proprietary or exclusive is
not treated as a limitation on disclosure if the
advisor confirms to the taxpayer that there is
no limitation on disclosure of the tax treatment
or tax structure of the transaction.
(iii) Minimum fee. For purposes of this
paragraph (b)(3), the minimum fee is—
(A) $ 250,000 for a transaction if the
taxpayer is a corporation;
(B) $ 50,000 for all other transactions
unless the taxpayer is a partnership or
trust, all of the owners or beneficiaries of
which are corporations (looking through
any partners or beneficiaries that are
themselves partnerships or trusts), in which
case the minimum fee is $ 250,000.
(iv) D et er mi nation of mi nimu m fe e .
For purposes of this paragraph (b)(3), in
determining the minimum fee, all fees for a tax
strategy or for services for advice (whether or
not tax advice) or for the implementation of a
transaction are taken into account. Fees include

83a
Appendix D
consideration in whatever form paid, whether
in cash or in kind, for services to analyze the
transaction (whether or not related to the tax
consequences of the transaction), for services
to implement the transaction, for services to
document the transaction, and for services
to prepare tax returns to the extent return
preparation fees are unreasonable in light of the
facts and circumstances. For purposes of this
paragraph (b)(3), a taxpayer also is treated as
paying fees to an advisor if the taxpayer knows
or should know that the amount it pays will be
paid indirectly to the advisor, such as through
a referral fee or fee-sharing arrangement. A
fee does not include amounts paid to a person,
including an advisor, in that person’s capacity
as a party to the transaction. For example, a
fee does not include reasonable charges for the
use of capital or the sale or use of property. The
IRS will scrutinize carefully all of the facts
and circumstances in determining whether
consideration received in connection with a
confidential transaction constitutes fees.
(v) Related parties. For purposes of this
paragraph (b)(3), persons who bear a relationship
to each other as described in section 267(b) or
707(b) [26 U.S.C. § 267(b) or 707(b)] will be
treated as the same person.

84a
Appendix D
(4) Transactions with contractual protection—
(i) In general. A transaction with contractual
protection is a transaction for which the
taxpayer or a related party (as described in
section 267(b) or 707(b) [26 U.S.C. § 267(b) or
707(b)]) has the right to a full or partial refund
of fees (as described in paragraph (b)(4)(ii)
of this section) if all or part of the intended
tax consequences from the transaction are
not sustained. A transaction with contractual
protection also is a transaction for which fees (as
described in paragraph (b)(4)(ii) of this section)
are contingent on the taxpayer’s realization of
tax benefits from the transaction. All the facts
and circumstances relating to the transaction
will be considered when determining whether
a fee is refundable or contingent, including the
right to reimbursements of amounts that the
parties to the transaction have not designated
as fees or any agreement to provide services
without reasonable compensation.
(ii) Fees. Paragraph (b)(4)(i) of this section
only applies with respect to fees paid by or on
behalf of the taxpayer or a related party to any
person who makes or provides a statement, oral
or written, to the taxpayer or related party
(or for whose benefit a statement is made or
provided to the taxpayer or related party) as to
the potential tax consequences that may result
from the transaction.

85a
Appendix D
(iii) Exceptions—
(A) Termination of transaction. A transaction
is not considered to have contractual
protection solely because a party to the
transaction has the right to terminate the
transaction upon the happening of an event
affecting the taxation of one or more parties
to the transaction.
(B) Previously reported transaction. If
a person makes or provides a statement
to a taxpayer as to the potential tax
consequences that may result from a
transaction only after the taxpayer has
entered into the transaction and reported
the consequences of the transaction on
a filed tax return, and the person has
not previously received fees from the
taxpayer relating to the transaction, then
any refundable or contingent fees are not
taken into account in determining whether
the transaction has contractual protection.
This paragraph (b)(4) does not provide any
substantive rules regarding when a person
may charge refundable or contingent fees
with respect to a transaction. See Circular
230, 31 C.F.R. part 10, for the regulations
governing practice before the IRS.

86a
Appendix D
(5) Loss transactions—
(i) In general. A loss transaction is any
transaction resulting in the taxpayer claiming
a loss under section 165 [26 U.S.C. § 165] of at
least—
(A) $ 10 million in any single taxable year or
$ 20 million in any combination of taxable
years for corporations;
(B) $ 10 million in any single taxable
year or $ 20 million in any combination of
taxable years for partnerships that have
only corporations as partners (looking
through any partners that are themselves
partnerships), whether or not any losses flow
through to one or more partners; or
(C) $ 2 million in any single taxable year
or $ 4 million in any combination of taxable
years for all other partnerships, whether or
not any losses flow through to one or more
partners;
(D) $ 2 million in any single taxable year or $
4 million in any combination of taxable years
for individuals, S corporations, or trusts,
whether or not any losses flow through to
one or more shareholders or beneficiaries; or
(E) $ 50,000 in any single taxable year for
individuals or trusts, whether or not the

87a
Appendix D
loss flows through from an S corporation or
partnership, if the loss arises with respect
to a section 988 [26 U.S.C. § 988] transaction
(as defined in section 988(c)(1) [26 U.S.C.
§ 988(c)(1)] relating to foreign currency
transactions).
(ii) Cumulative losses. In determining whether
a transaction results in a taxpayer claiming a
loss that meets the threshold amounts over a
combination of taxable years as described in
paragraph (b)(5)(i) of this section, only losses
claimed in the taxable year that the transaction
is entered into and the five succeeding taxable
years are combined.
(iii) Section 165 [26 U.S.C. § 165] loss—
(A) For pu r poses of this section, in
determining the thresholds in paragraph (b)
(5)(i) of this section, the amount of a section
165 [26 U.S.C. § 165] loss is adjusted for any
salvage value and for any insurance or other
compensation received. See § 1.165-1(c)(4).
However, a section 165 [26 U.S.C. § 165]
loss does not take into account offsetting
gains, or other income or limitations. For
example, a section 165 [26 U.S.C. § 165] loss
does not take into account the limitation in
section 165(d) [26 U.S.C. § 165(d)] (relating
to wagering losses) or the limitations in
sections 165(f), 1211, and 1212 [26 U.S.C.

88a
Appendix D
§§ 165(f), 1211, and 1212] (relating to capital
losses). The full amount of a section 165
[26 U.S.C. § 165] loss is taken into account
for the year in which the loss is sustained,
regardless of whether all or part of the
loss enters into the computation of a net
operating loss under section 172 [26 U.S.C.
§ 172] or a net capital loss under section
1212 [26 U.S.C. § 1212] that is a carryback
or carryover to another year. A section 165
[26 U.S.C. § 165] loss does not include any
portion of a loss, attributable to a capital
loss carryback or carryover from another
year, that is treated as a deemed capital
loss under section 1212 [26 U.S.C. § 1212].
(B) For purposes of this section, a section
165 [26 U.S.C. § 165] loss includes an amount
deductible pursuant to a provision that treats
a transaction as a sale or other disposition,
or otherwise results in a deduction under
section 165 [26 U.S.C. § 165]. A section 165
[26 U.S.C. § 165] loss includes, for example,
a loss resulting from a sale or exchange of
a partnership interest under section 741
[26 U.S.C. § 741] and a loss resulting from
a section 988 [26 U.S.C. § 988] transaction.
(6) Transactions of interest. A transaction of interest
is a transaction that is the same as or substantially
similar to one of the types of transactions that the IRS
has identified by notice, regulation, or other form of
published guidance as a transaction of interest.

89a
Appendix D
(7) [Reserved by 72 FR 43149]
(8) Exceptions—
(i) In general. A transaction will not be
considered a reportable transaction, or will
be excluded from any individual category of
reportable transaction under paragraphs (b)(3)
through (7) of this section, if the Commissioner
makes a determination by published guidance
that the transaction is not subject to the
reporting requirements of this section. The
Commissioner may make a determination by
individual letter ruling under paragraph (f)
of this section that an individual letter ruling
request on a specific transaction satisfies the
reporting requirements of this section with
regard to that transaction for the taxpayer who
requests the individual letter ruling.
(ii) Special rule for RICs. For purposes of this
section, a regulated investment company (RIC)
as defined in section 851 [26 U.S.C. § 851] or an
investment vehicle that is owned 95 percent or
more by one or more RICs at all times during
the course of the transaction is not required
to disclose a transaction that is described in
any of paragraphs (b)(3) through (5) and (b)(7)
of this section unless the transaction is also a
listed transaction or a transaction of interest.

90a
Appendix D
26 C.F.R. 301.6111-3(a)-(b)(1)
(a)In general. Each material advisor, as defined in
paragraph (b) of this section, with respect to any
reportable transaction, as defined in § 1.6011-4(b) of this
chapter, must file a return as described in paragraph (d)
of this section by the date described in paragraph (e) of
this section.
(b) Material advisor—
(1) In general. A person is a material advisor with
respect to a transaction if the person provides any
material aid, assistance, or advice with respect
to organi zing, manag ing, promoting, selling,
implementing, insuring, or carrying out any reportable
transaction, and directly or indirectly derives gross
income in excess of the threshold amount as defined
in paragraph (b)(3) of this section for the material aid,
assistance, or advice. The term transaction includes
all of the factual elements relevant to the expected
tax treatment of any investment, entity, plan or
arrangement, and includes any series of steps carried
out as part of a plan.

91a
Appendix D
Transaction of Interest -- Section 831 (b) Micro-Captive
Transactions
Notice 2016-66
The Department of the Treasury (“ Treasury
Department”) and the Internal Revenue Service (the
“IRS”) are aware of a type of transaction, described below,
in which a taxpayer attempts to reduce the aggregate
taxable income of the taxpayer, related persons, or both,
using contracts that the parties treat as insurance contracts
and a related company that the parties treat as a captive
insurance company. Each entity that the parties treat as
an insured entity under the contracts claims deductions for
premiums for insurance coverage. The related company
that the parties treat as a captive insurance company elects
under § 831 (b) of the Internal Revenue Code (the “Code”) to
be taxed only on investment income and therefore excludes
the payments directly or indirectly received under the
contracts from its taxable income. The manner in which
the contracts are interpreted, administered, and applied
is inconsistent with arm’s length transactions and sound
business practices.
The Treasury Department and the IRS believe this
transaction (“micro-captive transaction”) has a potential
for tax avoidance or evasion. See IR-2016-25 (discussing
characteristics of an abusive micro-captive insurance
structure). However, the Treasury Department and
the IRS lack sufficient information to identify which
§ 831 (b) arrangements should be identified specifically
as a tax avoidance transaction and may lack sufficient

92a
Appendix D
information to define the characteristics that distinguish
the tax avoidance transactions from other § 831 (b)
related-party transactions. This notice identifies the
transaction described in section 2.01 of this notice and
substantially similar transactions as transactions of
interest for purposes of § 1.6011-4 (b) (6) of the Income
Tax Regulations and §§ 6111 and 6112 of the Code. This
notice also alerts persons involved in such transactions to
certain responsibilities and penalties that may arise from
their involvement with these transactions.
SECTION 1. BACKGROUND
.01 Overview of Transaction
In the micro-captive transaction, A, a person, directly
or indirectly owns an interest in an entity (or entities)
(“Insured”) conducting a trade or business. A, persons
related to A, or both, also directly or indirectly own
another entity (or entities) (“Captive”).
In some cases, Captive enters into a contract (or
contracts) (the “Contract”) with Insured as discussed
below in section 1.02 of this notice. In these cases, Captive
may enter into a reinsurance or pooling agreement under
which a portion of the risks covered under the Contract are
treated as pooled with risks of other entities, and Captive
assumes risks from other entities as also discussed below
in section 1.02 of this notice.
In other cases, Captive indirectly enters into the
Contract by reinsuring risks that Insured has initially

93a
Appendix D
insured with an intermediary, Company C, as discussed
below in section 1.03 of this notice.
.02 Cases in Which Captive Enters into the Contract
with Insured
(a) In general. In cases in which Captive enters into
the Contract with Insured, Captive and Insured treat the
Contract as an insurance contract for federal income tax
purposes. Captive provides coverage for Insured.
Captive may offer coverage only to persons related
to or affiliated with Insured. If Captive also offers
coverage to persons that are not related to or affiliated
with Insured, Captive typically offers coverage only to
other entities represented by a person who promotes
the micro-captive transaction. Captive may enter into a
reinsurance or pooling agreement under which a portion
of the risks covered under the Contract are treated as
pooled with risks of other entities and Captive assumes
risks from other entities. Typically, the other entities
participating in the reinsurance or pooling agreement are
also represented by a person who promotes the microcaptive transaction.
Insured makes payments to Captive under the
Contract, treats the payments as insurance premiums
that are within the scope of § 1.162-1(a), and deducts the
payments as ordinary and necessary business expenses
under § 162. Captive treats the payments received from
Insured under the Contract as premiums for insurance
coverage. If Captive is not a domestic corporation, Captive

94a
Appendix D
makes an election under § 953(d) to be treated as a
domestic corporation. The micro-captive transaction is
structured so that Captive has no more than $1,200,000
in net premiums written (or, if greater, direct premiums
written) for each taxable year ($2,200,000 for taxable
years beginning after December 31, 2016) in which the
transaction is in effect. Captive makes an election under
§ 831 (b) to be taxed only on taxable investment income
and excludes the premiums from taxable income.
(b) Promoter. A promoter (“Promoter”) typically
markets the micro-captive transaction structure to A.
Promoter, persons related to Promoter, or both, typically
provide continuing services to Captive, including:
(1) providing the forms used for the Contract;
(2) management of Captive; and
(3) administrative, accounting, or legal services,
including the filing of tax forms.
(c) Contract coverage. The coverage provided by
Captive under the Contract has one or more of the
following characteristics:
(1) the coverage involves an implausible risk;
(2) the coverage does not match a business need or
risk of Insured;
(3) the description of the scope of the coverage in the
Contract is vague, ambiguous, or illusory; or

95a
Appendix D
(4) the coverage duplicates coverage provided to
Insured by an unrelated, commercial insurance company,
and the policy with the commercial insurer often has a far
smaller premium.
(d) Amounts paid to Captive. The payments made by
Insured to Captive under the Contract have one or more
of the following characteristics:
(1) the amounts of Insured’s payments under the
Contract are designed to provide Insured with a deduction
under § 162 of a particular amount;
(2) the pay ments are deter mined w ithout an
underwriting or actuarial analysis that conforms to
insurance industry standards;
(3) the payments are not made consistently with the
schedule in the Contract;
(4) the payments are agreed to by Insured and Captive
without comparing the amounts of the payments to
payments that would be made under alternative insurance
arrangements providing the same or similar coverage;
(5) the payments significantly exceed the premium
prevailing for coverage offered by unrelated, commercial
insurance companies for risks with similar loss profiles; or
(6) if Insured includes multiple entities, the allocation
of amounts paid to Captive among the insured entities
does not reflect the actuarial or economic measure of the
risk of each entity.

96a
Appendix D
(e) Claims procedures and management of Captive.
Captive, Insured, or both does one or more of the following:
(1) Captive fails to comply with some or all of the laws
or regulations applicable to insurance companies in the
jurisdiction in which Captive is chartered, the jurisdiction
(s) in which Captive is subject to regulation because of the
nature of its business, or both;
(2) Captive does not issue policies or binders in a timely
manner consistent with industry standards;
(3) Captive does not have defined claims administration
procedures that are consistent with insurance industry
standards; or
(4) Insured does not file claims for each loss event
covered by the Contract.
(f) Captive’s capital. Captive’s capital has one or more
of the following characteristics:
(1) Captive does not have capital adequate to assume
the risks that the Contract transfers from Insured;
(2) Captive invests its capital in illiquid or speculative
assets usually not held by insurance companies; or
(3) Captive loans or otherwise transfers its capital to
Insured, entities affiliated with Insured, A, or persons
related to A.

97a
Appendix D
.03 Cases in Which Insured and Captive Use an
Intermediary Company
In certain cases, Captive indirectly enters into the
Contract by reinsuring risks that Insured has initially
insured with an intermediary, Company C. In these cases,
Insured enters into a contract with Company C that the
parties treat as an insurance contract. Company C also
enters into a reinsurance contract with Captive to reinsure
risks under the contract between Insured and Company
C. In cases in which Captive reinsures risks that Insured
has initially insured with an intermediary, Company C,
the reinsurance agreement between Company C and
Captive is the Contract for purposes of this notice and the
disclosures required in section 3.05 of this notice.
In these cases, the coverage provided by Captive
under the Contract, the payments made to Captive by
Company C, and Captive’s capital each has one or more of
the characteristics described in section 1.02 (c), (d) or (f)
of this notice, as applicable; also, Captive, Insured or both
do one or more of the items described in section 1.02 (e)
of this notice. In addition, a Promoter typically markets
the transaction to A.
Moreover, in these cases, Company C is unrelated to
A or Insured but may be related to Promoter. Company
C enters into similar arrangements with other entities,
which usually are also represented by Promoter. Company
C reinsures with Captive a portion of the risks, commonly
in layers. For example, the first layer might cover losses
from $1 up to $10,000; the second layer might cover losses

98a
Appendix D
greater than $10,000, but not more than $100,000; and
the third layer might cover losses greater than $100,000.
Captive might assume from Company C 100% of one layer
of Insured’s risks and in another layer a proportionate
share of the aggregate risk of Insured and other entities.
The allocation among the layers of amounts paid to Captive
as premiums typically does not reflect the actuarial
or economic measures of the risks associated with the
particular layers. In addition, any claims filed generally
fall within the layer or layers that only cover risks of
Insured.
.04 Claimed Tax Treatment and Benefits
In the micro-captive transaction, Insured, Captive,
and, if applicable, Company C, treat the Contract as
an insurance contract for federal income tax purposes.
Insured claims a deduction for the premiums paid under
§ 162. Captive excludes the premium income from its
taxable income by electing under § 831(b) to be taxed
only on its investment income. Captive uses the premium
income for purposes other than administering and paying
claims under the Contract, generally benefitting Insured
or a party related to Insured. For instance, Captive may
use premium income to provide a loan to Insured.
However, if the transaction does not constitute
insurance, Insured is not entitled to deduct the amount
of that payment under § 162 as an insurance premium. In
addition, if Captive does not provide insurance, Captive
does not qualify as an insurance company and Captive’s
elections to be taxed only on its investment income

99a
Appendix D
under § 831 (b) and to be treated as a domestic insurance
company under § 953 (d) are invalid.
The Treasury Department and the IRS recognize
that related parties may use captive insurance companies
that make elections under § 831(b) for risk management
purposes that do not involve tax avoidance, but believe
that there are cases in which the use of such arrangements
to claim the tax benefits of treating the Contract as an
insurance contract is improper. Therefore, the Treasury
Department and the IRS are identifying transactions
described in section 2.01 of this notice (and transactions
substantially similar to such transactions) as transactions
of interest for purposes of § 1.6011-4(b)(6) and §§ 6111 and
6112 of the Code.
SECTION 2. TRANSACTIONS OF INTEREST
.01 Transactions Identified as Transactions of
Interest
The following transaction is identified as a transaction
of interest under this notice:
(a) A, a person, directly or indirectly owns an interest
in an entity (or entities) (“Insured”) conducting a trade
or business;
(b) An entity (or entities) directly or indirectly
owned by A, Insured, or persons related to A or Insured
(“Captive”) enters into a contract (or contracts) (the
“Contracts”) with Insured that Captive and Insured treat

100a
Appendix D
as insurance, or reinsures risks that Insured has initially
insured with an intermediary, Company C;
(c) Captive makes an election under § 831(b) to be
taxed only on taxable investment income;
(d) A, Insured, or one or more persons related (within
the meaning of § 267(b) or 707(b)) to A or Insured directly
or indirectly own at least 20 percent of the voting power
or value of the outstanding stock of Captive; and
(e) One or both of the following apply:
(1) the amount of the liabilities incurred by Captive for
insured losses and claim administration expenses during
the Computation Period (defined in section 2.02 of this
notice) is less than 70 percent of the following:
(A) premiums ea r ned by Captive dur ing the
Computation Period, less
(B) policyholder dividends paid by Captive during the
Computation Period; or
(2) Captive has at any time during the Computation
Period directly or indirectly made available as financing or
otherwise conveyed or agreed to make available or convey
to A, Insured, or a person related (within the meaning
of § 267 (b) or 707 (b)) to A or Insured (collectively, the
“Recipient”) in a transaction that did not result in taxable
income or gain to Recipient, any portion of the payments
under the Contract, such as through a guarantee, a loan,
or other transfer of Captive’s capital.

101a
Appendix D
A transaction described in this section 2.01 is identified
as a transaction of interest regardless of whether the
transaction has the characteristics described in section
1 of this notice.
.02 The Computation Period
The Computation Period is (a) the most recent five
taxable years of Captive or (b) if Captive has been in
existence for less than five taxable years, the entire period
of Captive’s existence. For purposes of the preceding
sentence, if Captive has been in existence for less than
five taxable years and Captive is a successor to one or
more Captives created or availed of in connection with
a transaction described in this notice, taxable years of
such predecessor entities are treated as taxable years of
Captive. For purposes of this section 2.02, a short taxable
year is treated as a taxable year.
.03 Exception for Compensatory Arrangements with
Prohibited Transaction Exemption
There may be limited circumstances in which a
captive insurance company arrangement that provides
insurance for employee compensation or benefits is
described in this section and accordingly is identified as a
transaction of interest under this notice. However, if such
an arrangement is one for which the Employee Benefits
Security Administration of the U.S. Department of Labor
has issued a Prohibited Transaction Exemption, it is not
treated as an arrangement identified as a transaction of
interest under this notice.

102a
Appendix D
SECTION 3. RULES OF APPLICATION
.01 Effective Date
Transactions that are the same as, or substantially
similar to, the transaction described in section 2.01 of
this notice are identified as “transactions of interest”
for purposes of § 1.6011-4(b)(6) and §§ 6111 and 6112
effective November 1, 2016. Persons entering into
these transactions on or after November 2, 2006, must
disclose the transaction as described in § 1.6011-4.
Material advisors who make a tax statement on or after
November 2, 2006, with respect to transactions entered
into on or after November 2, 2006, have disclosure and
list maintenance obligations under §§ 6111 and 6112. See
§ 1.6011-4(h) and § 301.6111-3(i) and § 301.6112-1(g) of the
Procedure and Administration Regulations.
Independent of their classification as transactions of
interest, transactions that are the same as, or substantially
similar to, the transaction described in section 2.01 of this
notice may already be subject to the requirements of
§§ 6011, 6111, or 6112, or the regulations thereunder. When
the Treasury Department and the IRS have gathered
enough information regarding potentially abusive § 831
(b) arrangements, the IRS and the Treasury Department
may take one or more actions, including removing the
transaction from the transactions of interest category in
published guidance, designating the transaction as a listed
transaction, or providing a new category of reportable
transaction. In the interim, the IRS may challenge a
position taken as part of a transaction that is the same
as, or substantially similar to, the transaction described

103a
Appendix D
in section 2.01 of this notice under other provisions of
the Code or judicial doctrines such as sham transaction,
substance over form, or economic substance.
.02 Participation
Under § 1.6011-4 (c) (3) (i) (E), A, Insured, Captive, and,
if applicable, Company C are participants in a transaction
for each year in which their respective tax returns reflect
tax consequences or a tax strategy of a transaction of
interest described in section 2.01 of this notice.
.03 Time for Disclosure
For rules regarding the time for providing disclosure
of a transaction described in section 2.01 of this notice, see
§ 1.6011-4 (e) and § 301.6111-3 (e). However, if, under § 1.60114(e), a taxpayer is required to file a disclosure statement with
respect to a transaction described in section 2.01 of this notice
after November 1, 2016, and prior to January 30, 2017, that
disclosure statement will be considered to be timely filed if
the taxpayer alternatively files the disclosure with the Office
of Tax Shelter Analysis by January 30, 2017.
.04 Material Advisor Threshold Amount
The threshold amounts are the same as those for listed
transactions. See § 301.6111-3(b)(3)(i)(B).
.05 Disclosure
(a) General rule. Under § 1.6011- 4(d) and the
Instructions to Form 8886, Reportable Transaction

104a
Appendix D
Disclosure Statement, the required disclosure must
identify and describe the transaction in sufficient detail
for the IRS to be able to understand the tax structure of
the reportable transaction and the identity of all parties
involved in the transaction.
(b) Information required of all participants. For all
participants, describing the transaction in sufficient detail
includes, but is not limited to, describing on Form 8886 when
and how the taxpayer became aware of the transaction.
(c) Information required of Captive. For Captive,
describing the transaction in sufficient detail includes, but
is not limited to, describing the following on Form 8886:
(1) Whether Captive is reporting because (i) the
amount of the liabilities incurred by Captive for insured
losses and claim administration expenses during the
Computation Period is less than 70 percent of the amount
specified in section 2.01(e)(1) of this notice; (ii) Captive has
at any time during the Computation Period made available
as financing or otherwise conveyed or agreed to make
available or convey any portion of the payments under the
Contract to A, Insured, or a person related (within the
meaning of § 267(b) or 707(b)) to A or Insured through a
separate transaction, such as a guarantee, a loan, or other
transfer; or (iii) both (i) and (ii);
(2) Under what authority Captive is chartered;
(3) A description of all the type(s) of coverage provided
by Captive during the year or years of participation (if
disclosure pertains to multiple years);

105a
Appendix D
(4) A description of how the amounts treated as
premiums for coverage provided by Captive during the
year or years of participation (if disclosure pertains to
multiple years) were determined, including the name and
contact information of any actuary or underwriter who
assisted in these determinations;
(5) A description of any claims paid by Captive during
the year or years of participation (if disclosure pertains to
multiple years), and of the amount of, and reason for, any
reserves reported by Captive on the annual statement; and
(6) A description of the assets held by Captive during
the year or years of participation (if disclosure pertains
to multiple years); that is, the use Captive has made of
its premium and investment income, including but not
limited to, securities (whether or not registered), loans,
real estate, or partnerships or other joint ventures, and
an identification of the related parties involved in any
transactions with respect to those assets.
.06 Penalties
Persons required to disclose these transactions
under § 1.6011-4 who fail to do so may be subject to the
penalty under § 6707A. Persons required to disclose
these transactions under § 6111 who fail to do so may be
subject to the penalty under § 6707(a). Persons required to
maintain lists of advisees under § 6112 who fail to do so (or
who fail to provide such lists when requested by the IRS)
may be subject to the penalty under § 6708(a). In addition,
the IRS may impose other penalties on parties involved in

106a
Appendix D
these transactions, including the accuracy-related penalty
under § 6662 or § 6662A.
SECTION 4. REQUEST FOR COMMENTS
The Treasury Department and the IRS request
comments on how the transaction might be addressed in
published guidance.
Comments should be submitted in writing on or before
January 30, 2017. Send submissions to CC:PA:LPD:PR
(Notice 2016-66), Room 5203, Internal Revenue Service,
P.O. Box 7604, Ben Franklin Station, Washington, DC
20044. Submissions may be hand-delivered Monday
through Friday between the hours of 8 a.m. and 4 p.m.
to CC:PA:LPD:PR (Notice 2016-66), Courier’s Desk,
Internal Revenue Service, 1111 Constitution Avenue,
NW, Washington, DC 20224. Comments may also be
sent electronically, via the following e-mail address:
Notice.comments@irscounsel.treas.gov. Please include
“Notice 2016-66” in the subject line of any electronic
communications. All comments submitted will be available
for public inspection and copying.
SECTION 5. DRAFTING INFORMATION
The principal author of this notice is John E. Glover
of the Office of Associate Chief Counsel (Financial
Institutions & Products). For further information
regarding this notice contact Mr. Glover at (202) 317-6995
(not a toll-free call).

